<html>
<title> - AMERICANS WITH DISABILITIES ACT AT 20</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
   AMERICANS WITH DISABILITIES ACT AT 20--CELEBRATING OUR PROGRESS, 
                        AFFIRMING OUR COMMITMENT 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION, 
                   CIVIL RIGHTS, AND CIVIL LIBERTIES

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 22, 2010

                               __________

                           Serial No. 111-110

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-559 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               STEVE KING, Iowa
HENRY C. ``HANK'' JOHNSON, Jr.,      TRENT FRANKS, Arizona
  Georgia                            LOUIE GOHMERT, Texas
PEDRO PIERLUISI, Puerto Rico         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               TED POE, Texas
JUDY CHU, California                 JASON CHAFFETZ, Utah
TED DEUTCH, Florida                  TOM ROONEY, Florida
LUIS V. GUTIERREZ, Illinois          GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DANIEL MAFFEI, New York
JARED POLIS, Colorado

       Perry Apelbaum, Majority Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

  Subcommittee on the Constitution, Civil Rights, and Civil Liberties

                   JERROLD NADLER, New York, Chairman

MELVIN L. WATT, North Carolina       F. JAMES SENSENBRENNER, Jr., 
ROBERT C. ``BOBBY'' SCOTT, Virginia  Wisconsin
WILLIAM D. DELAHUNT, Massachusetts   TOM ROONEY, Florida
HENRY C. ``HANK'' JOHNSON, Jr.,      STEVE KING, Iowa
  Georgia                            TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
JOHN CONYERS, Jr., Michigan          JIM JORDAN, Ohio
STEVE COHEN, Tennessee
SHEILA JACKSON LEE, Texas
JUDY CHU, California

                     David Lachmann, Chief of Staff

                    Paul B. Taylor, Minority Counsel























                            C O N T E N T S

                              ----------                              

                             JULY 22, 2010

                                                                   Page

                           OPENING STATEMENTS

The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     1
The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Ranking Member, 
  Subcommittee on the Constitution, Civil Rights, and Civil 
  Liberties......................................................     3
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Member, Subcommittee 
  on the Constitution, Civil Rights, and Civil Liberties.........     5
The Honorable Steve Cohen, a Representative in Congress from the 
  State of Tennessee, and Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     6
The Honorable Tammy Baldwin, a Representative in Congress from 
  the State of Wisconsin, and Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................    17

                               WITNESSES

The Honorable Steny H. Hoyer, a Representative in Congress from 
  the State of Maryland
  Oral Testimony.................................................     7
  Prepared Statement.............................................    11
The Honorable James R. Langevin, a Representative in Congress 
  from the State of Rhode Island
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
The Honorable Thomas E. Perez, Assistant Attorney General, Civil 
  Rights Division, United States Department of Justice
  Oral Testimony.................................................    20
  Prepared Statement.............................................    23
The Honorable Richard Thornburgh
  Oral Testimony.................................................    39
  Prepared Statement.............................................    42
Ms. Cheryl Sensenbrenner, Immediate Past Board Chair, American 
  Association of People With Disabilities
  Oral Testimony.................................................    59
  Prepared Statement.............................................    62
Lt. Col. Gregory D. Gadson, Director, U.S. Army Wounded Warrior 
  Program
  Oral Testimony.................................................    71
  Prepared Statement.............................................    72
Mr. Jonathan M. Young, Chairman, National Council on Disability
  Oral Testimony.................................................    76
  Prepared Statement.............................................    79
Ms. Casandra Cox, Member, Policy Committee, Coalition of 
  Institutionalized Aged and Disabled
  Oral Testimony.................................................    86
  Prepared Statement.............................................    88
Ms. Adrian Villalobos, Intern, National Disability Rights Network
  Oral Testimony.................................................    91
  Prepared Statement.............................................    94

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Tammy Baldwin, a 
  Representative in Congress from the State of Wisconsin, and 
  Member, Subcommittee on the Constitution, Civil Rights, and 
  Civil Liberties................................................    18

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on the Constitution, Civil Rights, and Civil 
  Liberties......................................................   105


   AMERICANS WITH DISABILITIES ACT AT 20--CELEBRATING OUR PROGRESS, 
                        AFFIRMING OUR COMMITMENT

                              ----------                              


                        THURSDAY, JULY 22, 2010

              House of Representatives,    
              Subcommittee on the Constitution,    
                 Civil Rights, and Civil Liberties,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Jerrold 
Nadler (Chairman of the Subcommittee) presiding.
    Present: Representatives Nadler, Conyers, Watt, Scott, 
Baldwin, Cohen, Jackson Lee, Sensenbrenner, and Franks.
    Staff Present: (Majority) David Lachmann, Subcommittee 
Chief of Staff; Heather Sawyer, Counsel; Elizabeth Kendall, 
Counsel; and Paul Taylor, Minority Counsel.
    Mr. Nadler. I call this meeting of the Subcommittee on the 
Constitution, Civil Rights, and Civil Liberties to order. We 
have four panels today, we will endeavor to do this with some 
dispatch. To begin with, I recognize myself for an opening 
statement. This hearing commemorates the 20th anniversary of 
the Americans With Disabilities Act of 1990 and provides us 
with an opportunity to reflect on our progress and affirm our 
commitment to achieving the ADA's full promise.
    Heralded at its signing in 1990 as an emancipation 
proclamation for people with disabilities, the goals of the ADA 
are lofty, and embody core principals that made this Nation 
great. Equality of opportunity, independence and integration. 
Through broad non-discrimination, directives aimed at 
employers, government entities, and places of public 
accommodation, and requirements of reasonable accommodation and 
modification that are designed to dismantle architectural and 
societal barriers, the ADA has transformed our world.
    Some of those changes are visible: lifts on busses, 
elevators and subway stations; power assisted and wider doors, 
designated parking spots, curb cuts; and as with today's 
hearing, closed captioning. Others are not so visible but are 
powerfully important nonetheless. Those less visable changes, 
the slow breakdown of the disabling stereotypes, myths, 
prejudice and stigma are also happening because of the 
increased access and opportunity made possible by the ADA.
    As we witness and benefit from the contributions of family 
members, colleagues and neighbors with disabilities, outdated 
and misguided beliefs are challenged and changed. While we 
still have a long way to go, our passage of the ADA Amendments 
Act of 2008 is yet another mark of our progress on this front.
    Through the ADA Amendments Act, we responded to the Supreme 
Court's unduly narrow interpretation of the definition of 
disability, and reaffirmed our commitment to focusing on 
ability; the ability to do a job, to participate in programs, 
services or activities, or to thrive in a community-based 
setting, rather than the degree or severity of our limitations. 
Thus we will hear from the witnesses who are with us here 
today, we have much to celebrate.
    We also know that we have not reached the finish line, and 
that much work remains. As you will hear today from Assistant 
Attorney General Thomas Perez and Casandra Cox, we must 
continue working to end the unnecessary institutionalization of 
people with disabilities.
    Ms. Cox was placed in an adult home following a short 
hospitalization. Despite her request for assistance in finding 
an appropriate community-based placement, she remained in that 
home for 3 years until she was able--through persistence and 
good luck in being selected for a State pilot program--to find 
a community-based placement where she has thrived.
    The ADA's promise of integration and independence should 
not depend on persistence or on luck. More than 10 years ago in 
Olmstead v. L.C., the Supreme Court declared that unnecessary 
institutionalization violates the ADA, and that States must 
ensure that individuals receive services in the least 
restrictive setting possible. Yet thousands of individuals like 
Ms. Cox--individuals who can and should receive services in 
community-based settings--remain warehoused in large 
institutions. This remains true despite the fact that former 
residents are thriving in supportive settings at costs that are 
lower than, or equal to, the cost of institutional care.
    Work to make public transit systems and brick and mortar 
structures accessible also remains unfinished. Twenty years 
after the ADA required readily achievable changes to existing 
structures and set out standards for new buildings, many brick 
and mortar facilities remain inaccessible. And while we have 
made great strides in our public transit systems, significant 
gaps and ongoing problems remain.
    Continued noncompliance with Titles II and III of the ADA 
is inexcusable. While we should continue to pursue proposals 
that promote voluntary compliance like the Department of 
Justice's Project Civic Access, we should rightly reject any 
measure that threatens the ADA's promise of access and 
integration. Even as we press forward to ensure greater access 
to physical places and programs and services, we cannot lose 
sight of the need to ensure that evolving technologies are also 
accessible.
    In the 20 years since the ADA's passage, technology has 
revolutionized the way we work, learn, shop and socialize. 
While these events ultimately may offer individuals with 
disabilities unprecedented access and opportunities, we have 
yet to see that full potential realized.
    During a Subcommittee hearing this past spring focusing on 
access to emerging technology as a civil rights issue under the 
ADA, we urged the Department of Justice to issue regulations 
and additional guidance to achieve greater compliance with the 
ADA's equal access obligations with regard to the Internet and 
other evolving technologies. I hope we hear more today about 
the Department's plans to do so.
    As we celebrate our progress and set our sights on the 
challenges that remain, I would like to take a moment to 
recognize and thank my colleague, Jim Sensenbrenner. My 
colleague from Wisconsin first introduced the ADA Restoration 
Act in the 109th Congress and worked with the majority leader, 
Representative Steny Hoyer--who is one of the ADA's greatest 
champions, and who we are also honored to have here with us 
today--to ensure passage of the ADA Amendments Act of 2008 in 
the 110th Congress.
    The full Judiciary Committee favorably reported that bill 
by unanimous vote. For those of you who are not that familiar 
with this Committee, the full agreement on anything in this 
Committee is, to say the least, unusual. And I thank the 
Ranking Member for his leadership, and I thank all of my 
colleagues on both sides of the aisle for setting aside our 
differences on other issues to come together on such a 
critically important issue. Our collaboration on the ADA 
Amendments Act which was then passed by on overwhelming 
majority of the House, illustrates an enduring bipartisan 
commitment to achieving the full civil rights for Americans 
with disabilities, some of whom are with us today to share 
their stories and to bear testament to the real impact that the 
ADA has had on the lives of millions. It shows that when we can 
lay aside our differences for a common purpose, we can achieve 
great things.
    I look forward to hearing from the witnesses today and to 
working toward the day when the full promise of the ADA is 
finally achieved. I yield back and recognize for an opening 
statement, the distinguished Ranking Member.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. 
Twenty years ago, this country took a significant step forward 
in eliminating the barriers that far too long kept disabled 
Americans from fully participating in everything the American 
dream has to offer. Prior to the Americans With Disabilities 
Act of 1990, disabled Americans faced not only physical 
barriers in almost all aspects of society, but also attitudinal 
barriers, which relegated them to a form of second class 
citizenship.
    Moreover, because Federal and State laws were ill equipped 
to protect disabled Americans at the time, the discriminatory 
treatment employed by others created a vicious cycle that 
perpetuated false stereotypes. As a result, disabled Americans 
experienced lower graduation and employment rates, higher 
poverty rates, and less personal freedom and independence than 
more able-bodied citizens.
    The ADA, enacted on July 26th, 1990, broke this vicious 
cycle by helping restore the full meaning of legal protection 
under the law. Like the civil rights laws that came before it, 
this landmark bipartisan law has worked to transform our 
Nation. As a result of the ADA, fewer citizens are judged by 
their physical and mental impairments, and are now evaluated 
according to their character and qualifications.
    In the last Congress, I worked with Majority Leader Hoyer 
to achieve the enactment of the ADA Amendments Act of 2008, 
which further fulfilled the promise of the ADA making clear the 
intent of Congress to cover a broad group of individuals with 
disabilities under the Act. That legislation served to 
eliminate the problem of the courts focusing too heavily on 
whether individuals are covered by the law rather than on 
whether discrimination occurred.
    My wife, Cheryl, who was then chairman of the Board of the 
American Association of People With Disabilities, and who is a 
witness here today, was dogged in her advocacy for that 
legislation. In fact, when she got people to commit to 
cosponsoring the ADA, and they came up to me and said they had 
second thoughts about that, I said call up Cheryl. None of them 
did.
    Congress intended for the ADA to expand its broad 
protections into five areas, including the employment sector of 
the services programs and benefits provided by State and local 
governments, places of public accommodation and the services 
they provide, transportation services and facilities and 
telecommunication services. Equally important are the changes 
in societal attitudes that are starting to occur as a result of 
the ADA, particularly as it relates to the educational and 
employment opportunities of disabled Americans.
    Increased educational and employment opportunities have 
allowed disabled Americans to experience higher graduation 
rates, higher employment rates and lower rates of poverty than 
before. Because of the ADA, disabled citizens no longer live in 
isolation, but live as independent self-sufficient members of 
our communities.
    Many of the witnesses at our hearing today can speak about 
the progress and promise of the ADA from personal experience. 
Those witnesses include a young man who suffered a disability 
at the age of 8, and who has come of age under the ADA. His is 
a story of integration into schools and peer groups that likely 
could not have been told if it were not for the ADA. Our 
witnesses include a woman who has moved successfully from adult 
home to her own apartment with some support and assistance. The 
approval of her transition was not as easy as it should have 
been, but now that her move has been approved, hers is a story 
of increased independence and personal fulfillment that also 
could not have been told if it were not for the ADA. The 
bipartisan witnesses here today include a former Republican 
Attorney General governor of Pennsylvania and a Member of 
Congress.
    In essence, the ADA is not about statutory text or legal 
jargon, it is about individual human beings who are not able to 
explore and develop more of their own capabilities. Becoming 
more self-sufficient is essential to human happiness, and that 
is what the ADA has made possible. It has made the world not 
only more accessible, it has made it a happier place. Fewer 
Federal laws can claim as much so clearly that we rightfully 
celebrate the ADA here today. The ADA has been one of the most 
effective civil rights laws ever passed by Congress. Its 
continued effectiveness is paramount to ensuring that the 
transformation that our Nation has undergone continues into the 
future, and that the guarantees and promises on which this 
country was established continued to be recognized on behalf of 
all of its citizens. I look forward to hearing from our 
witnesses today and yield back the balance of my time.
    Mr. Nadler. I thank the gentleman, I now recognize for an 
opening statement, the gentleman from Virginia.
    Mr. Scott. Thank you, Mr. Chairman, and thank you for 
holding this hearing to commemorate the 20th Anniversary of the 
Americans With Disabilities Act and to examine the progress we 
have made as well as the direction we need to continue to move 
in toward the future.
    In 1990, then-President George H.W. Bush signed the 
Americans With Disabilities Act into law. It was the most 
significant piece of Federal civil rights legislation since the 
signing of the Civil Rights Act by President Johnson in 1964 
and 1965. There has been a tremendous success and as a result 
of the, ADA, millions more Americans with disabilities are 
actively participating in the workforce as employers in 
government and private businesses alike, are required to make 
reasonable accommodations whenever feasible to encourage and 
enable individuals with disabilities to participate in the 
social and economic fabric of American life. But it was not the 
first legislation to do so.
    Mr. Chairman, in early 1980's, when I was a member of the 
general assembly, 64 disability organizations formed an 
organization called INVEST, Insure Virginians Equal Status 
Today to pass a State statute in Virginia to protect 
individuals with disabilities from discrimination. I was a 
Member of the Senate Committee that considered the legislation, 
and we dealt with many of the contentious issues such as what 
is a reasonable accommodation, and we worked through all of 
those issues. And in 1985, the Virginians With Disabilities Act 
was signed into law by then-Governor Charles S. Robb. Today, 
the Act protects nearly 1 million residents of the Commonwealth 
of Virginia. This Act acknowledged that, ``it is the policy of 
the Commonwealth to encourage and enable persons with 
disabilities to participate fully and equally in the social and 
economic life'' and it protects Virginians with disabilities 
from discrimination and employment, education, housing, voting 
and places of public accommodation.
    It preceded the Federal Americans with disabilities Act by 
5 years. And many of the key concepts of the Virginia statute 
formed the basis of the ADA. The landmark Virginians with 
Disabilities Act was the Commonwealth's commitment to encourage 
persons with disabilities to participate fully in the social 
and economic life of the commonwealth. Five years later the 
Americans with Disabilities Act of 1990 was enacted to protect 
all Americans against discrimination on the basis of 
disability.
    Mr. Chairman, I am proud that 20 years later, we're able to 
look back upon the passage of the Federal Americans with 
Disabilities Act and recognize the importance of this 
legislation and the changes made in American society. But our 
work is not yet done. The law is stable and cannot stand still, 
it must continue to evolve. We must continue to revisit the ADA 
and to examine whether it is accomplishing its purpose. And 
when we find it is not, we must be willing to make changes 
necessary to do so.
    One recent example of this willingness occurred in last 
Congress when we passed Americans With Disabilities Amendment 
Act of 2008 which was signed into law by President George W. 
Bush and became effective January 1st, 2009. The ADA Amendments 
Act restored the ADA to Congress's original intent by 
clarifying that coverage under the ADA is broad and covers 
anyone who faces unfair discrimination because of disability, 
and it overturned several court decisions that held people with 
disabilities would lose their coverage under the ADA simply 
because their condition is treatable with medication but can be 
addressed with the help of assistive technology.
    That legislation was the direct result of the business and 
disability communities working together to rectify a problem 
that was created by the courts. It is my hope that this kind of 
commitment, determination and cooperation will continue into 
the future so that individuals with disabilities will forever 
be able to secure, and maintain employment without fear of 
being discriminated against because of their disability.
    I thank you for holding the hearing, Mr. Chairman. I look 
forward to hearing our witnesses today.
    Mr. Nadler. I thank the gentleman. Without objection, all 
Members have 5 legislative days to submit opening statements 
for inclusion in the record. Without objection the Chair will 
be authorized to declare a recess to the hearing. I notice that 
we've just been joined by the gentleman from Tennessee who will 
be recognized for a brief opening statement.
    Mr. Cohen. Thank you, Mr. Chairman. Very briefly, I 
appreciate the opportunity to speak. When I was in the State 
legislature I helped pass the State ADA bill in Tennessee, and 
there were people who didn't understand the need for it. Is a 
great need, and whenever I drive and I see curb cuts and I see 
people with wheelchairs using those curb cuts I think of how 
great that bill is and how necessary it was and how callous it 
was for people to think we didn't need to pass such a bill. Any 
opportunities we give people who have disabilities, and in all 
cases, it is there but for the grace of God, that everybody 
should have the opportunity to have full access to all the 
opportunities that the country offers. This city is tourist 
friendly and people get around and walk, and if you're in a 
wheelchair you need to have those curb cuts, you need 
opportunities to have hand braces and whatever.
    Personally as a child, I had polio and that's just 
something that happens, you get the virus or don't get the 
virus. It has nothing to do with anything else. So many 
illnesses are that way. It is the lottery of life. And we ought 
to protect it, it is like insurance. And it is a great 
insurance that the American government can give. I appreciate 
the ADA and what it does for folks and gives them better 
opportunities. I'm happy to be here and I thank people who were 
the original sponsors, Mr. Langevin and Mr. Hoyer, for their 
work on this and the Chairman. Thank you. I yield back the 
remainder of my time.
    Mr. Nadler. I thank the gentleman. I am now pleased to 
introduce two of our esteemed colleagues. Congressman Steny 
Hoyer is the majority leader of the House of Representatives, 
and the Representative of Maryland's 5th congressional 
district. He was elected to the Maryland Senate at age 27, and 
at 35, he was chosen as its president, making him the youngest 
president in the Senate in State history. Now serving his 
fifteenth term in the House, he's the longest serving Member in 
the House of Representatives for Maryland in history. Among his 
many legislative accomplishments, Congressman Hoyer is known 
for guiding the landmark Americans With Disabilities Act in 
1990, and he has continued to fight for the rights of the 
disabled through his leadership in the passage of the ADA 
Amendments Act of 2008.
    Congressman Jim Langevin is the Representative of Rhode 
Island's second congressional district. Congressman Langevin 
first ran for public office in 1986. He was elected as delegate 
to Rhode Island's constitutional convention and served as its 
secretary. Two years later, he won an election to the Rhode 
Island House of Representatives. 1994 Congressman Langevin 
became Secretary of State of Rhode Island, an office in which 
he served until his first election to Congress in 2000. 
Congressman Langevin is a Member of the House Armed Services 
Committee and Chair of the Strategic Forces Subcommittee. He 
also serves on the Permanent Select Committee on Intelligence 
and on the House Committee on the Budget. I am pleased to 
welcome you both.
    I would now like to begin by recognizing Mr. Hoyer.

TESTIMONY OF THE HONORABLE STENY H. HOYER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Hoyer. Mr. Chairman, thank you much. I appreciate this 
opportunity to be here, both with Jim Langevin--the green 
light's on. Am I on? I appreciate the opportunity to be here 
with Mr. Langevin in particular. What a symbol he is of the 
success of the Americans with Disabilities Act. I'm also, of 
course, very pleased to be here with my friend, Jim 
Sensenbrenner, and the chief lobbyist in his household----
    Mr. Nadler. Steny, could bring the mike a little closer to 
you?
    Mr. Hoyer. There? All right, I'm still pleased to be here. 
I was saying about Jim and Cheryl Sensenbrenner, who have been 
two giants in the promotion of the Americans With Disabilities 
Act in its passage and the continuing focus to make sure that 
its promise was realized. And I thank them both for their help. 
It was a bipartisan bill, overwhelmingly passed in the House 
and the Senate. I want to mention, of course, Senator Kennedy, 
who is not with us, but who was extraordinarily important in 
passing the ADA. I also want to mention Senator Harkin in the 
Senate who was the principal coordinator of the efforts in the 
Senate. And of course, the Chairman of this Committee, John 
Conyers, who was so important in the passage of this bill.
    Everybody has mentioned, of course, Dick Thornburgh, 
Attorney General Thornburgh, Governor Thornburgh, he and his 
wife, both giants in the support of and education of so many of 
us on the challenge confronting those with disabilities. It has 
been mentioned over and over again, but this is a historic 
time, 20 years, 2 decades since the passage of the Americans 
With Disabilities Act. The first President Bush signed into law 
one of the most consequential pieces of civil rights 
legislation in recent memory.
    Indeed, as Mr. Scott pointed out it has been called, and I 
think you did as well, Mr. Chairman, the most significant civil 
rights legislation in 25 years, since the passage in 1965 of 
the Civil Rights Act of 1965.
    In the ceremony on the South Lawn of the White House 
President Bush said this, and I quote, ``With today's signing 
of the landmark Americans With Disabilities Act every man, 
woman and child with a disability can now pass through once 
closed doors into a bright new era of equality, independence 
and freedom.'' In large measure he was right. Those doors 
certainly have come open. Tens of millions of Americans with 
disabilities now enjoy rights, the rest of us have long taken 
for granted. The right to use the same streets, theaters, 
restrooms, offices, the right to prove themselves in the 
workplace. And focus on the content of their character and 
their abilities, not their disabilities. To succeed on their 
talent and drive alone. We all understand why there are cuts in 
the sidewalk as has been mentioned, in every street corner, 
kneeling buses on our city streets, elevators on the Metro, 
ramps to movie theaters, and accessible restrooms and 
handicapped parking almost everywhere.
    Each one, Mr. Chairman, is a sign of a pledge. A promise of 
an America that excludes none of its people from its spirit of 
equal opportunity. I have observed numerous times over the last 
couple of days that in our declaration of independence, we said 
that all men and all women, included hopefully generically in 
that term, were created equal and endowed by their creator with 
certain unalienable rights, among these life, liberty and the 
pursuit of happiness.
    On a regular basis, America has had to look at that promise 
of 1776 and said it was not living out the pledge of that 
promise, whether it was the Civil War, the 13th or 14th 
Amendment when we said African American citizens were not 
treated in a manner consistent with that promise, or whether it 
was in the early part of the last century when we said to women 
in this country, we have not lived out the promise that we 
made, or whether it was in the late '50's and '60's when we 
said again to African-Americans that not withstanding 
constitutional amendments, not withstanding a Civil War we were 
still discriminating against fellow citizens on the basis of 
the color of their skin.
    So we adopted in 1964 and '65, and indeed in '57, and since 
then, reminders to ourselves that we had not reached the 
promise of that pledge. Again, in 1990, Mr. Chairman, we again 
reaffirmed that the pursuit of happiness should be open in 
America to all, and that we ought to facilitate that pursuit by 
all irrespective of any challenges they confronted.
    The ADA was a demonstration of just how much we can 
accomplish when Republicans and Democrats, business leaders and 
activists work together to strengthen the ideals that unite us 
as Americans. The ADA wasn't simply a collection of rules, as 
Mr. Sensenbrenner has so correctly observed in his opening 
statement. It was a set of principals that we have to work to 
adapt to changing times. That's what Congress did when we 
strengthened the ADA and returned it to its original intent by 
passing the ADA Amendment Act.
    Again, I want to thank my friend, Jim Sensenbrenner and his 
wife Cheryl for being giants in the leadership in effecting 
those amendments which said to the Supreme Court and to America 
that we needed to focus on discrimination, not on the 
disability. Whether disabled or perceived to be disabled, if 
one were discriminated against on that basis, we meant in the 
law that that was against the law. Those amendments restated 
and reemphasized that proposition.
    Again with strong support, that bill was passed and signed 
by President Bush's son. How appropriate the father and son 
would be able to sign both the original Disabilities Act and 
the confirmation of the intent of that Act. That's what we did 
today when we announced that we made the House rostrum 
wheelchair accessible for the first time. I mentioned a little 
earlier today Mr. Chairman in a press conference that Josh 
Grobin, a famous singer that many of you know with a wonderful 
voice sings a song You Lift Me Up.
    The song essentially says you lift me up to walk on 
troubled waters and to climb mountains. The last line of that 
song is you lift me up beyond what I can be--actually it says 
to more than I can be. I said today as we had a press 
conference about the rostrum being made accessible to Jim 
Langevin, who will, on Monday, preside as we consider 
legislation regarding the Americans With Disabilities Act, Jim 
Langevin will be lifted up by a mechanical device, which under 
the statute is called a reasonable accommodation, because he is 
fully able to preside by intellect and by character. But until 
just a couple of months ago, that rostrum was not accessible. 
How proud all of us will be when Jim Langevin will be lifted up 
to preside over the House of Representatives for all Americans 
to see, and indeed people around the world, that America does 
not believe that there ought to be barriers to participation 
and inclusion.
    That's what the Americans with Disabilities Act said, and 
that's what its predecessor, the Civil Rights Act said, that we 
wanted to open up and make clear that America was a land of 
opportunity, not just for some, not just for White men, but for 
peoples of all colors, of all races, of all nationalities, of 
all distinctions that were not related to ability and 
character. Jim Langevin will preside on July 26th, 2010, two 
decades after the passage of the Americans with Disabilities 
Act.
    The ADA's mission of inclusion and equal opportunity is, of 
course, as all have observed, still a work in progress, as is 
the pledge that was made in 1776 for the pursuit of happiness. 
We understand even in America that that pledge has not yet been 
fully redeemed, and this Committee more than most--and this 
Subcommittee, more than most, is ever vigilant to seek the full 
realization of that promise. Now, Mr. Chairman, I thank you and 
the Members for that.
    Americans with disabilities are still disproportionately, 
however, less likely to have a job and more likely to be poor 
than their fellow Americans. Many Americans with disabilities 
still struggle to get equal treatment in the classroom, to find 
transportation to work or to cast ballots independently or 
privately. Changing technologies, as you said, Mr. Chairman, 
from touch screens to Internet broadcast pose new accessibility 
challenges.
    So Mr. Chairman and Members of the Committee, Mr. Conyers, 
I mentioned you before that. No one has been in the fight for 
civil liberties for constitutional guarantees for those who 
have been shut out and discriminated against more than you. And 
we honor you this day for the role that you played in the 
passage of the Americans with Disabilities.
    Mr. Chairman, as we mark this anniversary let's remember 
the work that we have in front of us. The ADA made America a 
model for other nations and a world leader on one of the 
central challenges of human rights. It is my hope that Congress 
will live up to the legacy of the ADA and continue to maintain 
that leadership. Thank you very much, Mr. Chairman. And I'm 
honored to be here, as I said, with Mr. Langevin and Mr. 
Conyers and all of you.
    [The prepared statement of Mr. Hoyer follows:]
Prepared Statement of the Honorable Steny H. Hoyer, a Representative in 
     Congress from the State of Maryland, and House Majority Leader

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Nadler. Thank you. I will now recognize the Honorable 
Jim Langevin.

TESTIMONY OF THE HONORABLE JAMES R. LANGEVIN, A REPRESENTATIVE 
           IN CONGRESS FROM THE STATE OF RHODE ISLAND

    Mr. Langevin. Thank you, Mr. Chairman, Ranking Member 
Sensenbrenner, and of course, Chairman Conyers. Let me thank 
you for the opportunity to offer my testimony as we commemorate 
the 20th Anniversary of the Americans With Disabilities Act. 
Let me, in particular, say what a privilege it is for me to be 
sitting next to Majority Leader Hoyer, a true champion and 
visionary and leader in the passage of the Americans With 
Disabilities Act.
    Today, many of us have nearly forgotten an era in which it 
was commonplace for a person to be denied employment because 
she was blind or unable to attend University because he was in 
a wheelchair. Yet, it was only a generation ago when the 
societal norm was to treat individuals with disabilities as 
second class citizens. As a Member of the House of 
Representatives, founder and co-chairman of the bipartisan 
disabilities caucus, and someone who has lived with the 
challenges of a disability, both before and after the ADA's 
enactment in 1990, I have experienced firsthand the profound 
changes that this law has affected within our society.
    When I was paralyzed almost 30 years ago at the age of 16, 
my life changed forever and as I lay in a hospital bed, I 
wondered what life could possibly have in store for me next, 
what opportunities would I have in life? How would I find my 
path knowing the challenges ahead of me? But I drew strength 
and inspiration with other people with disabilities who had 
gone on to accomplish things in their own lives that were 
meaningful to them and they taught me that there certainly was 
life after a disability.
    I was also incredibly lucky to have the support of my 
family and my community, and of course, my deep faith in God 
got me through one of the most challenging times in my life. 
Along with that and my family and my community, whose 
generosity and concern ultimately made me want to get to Rhode 
Island to a career in public service. But for many individuals 
with disabilities, they were not as lucky or as fortunate.
    For all of us, the ADA has been a profoundly life altering 
law that has provided new opportunities and fundamentally 
changed the way society views and treats people with 
disabilities. Changing the hearts and minds of a Nation only 
comes with extraordinary leadership, and I just would like to 
take a moment once again to recognize my colleague and someone 
who has also been a mentor, House Majority Leader Steny Hoyer. 
Twenty years ago, he was so instrumental in passing the 
Americans With Disabilities Act. So many ways he was important 
in obviously leading through and passing the single most 
important civil rights law to disabled individuals in our 
country's history. And let me just say to Steny that I will 
never forget that it is largely thanks to your vision and your 
leadership that I am here serving in the Congress today.
    Of course, leader Hoyer was not alone in his vision and his 
efforts to guarantee equal rights for the disabled. He was 
joined by giants in the civil rights community and disabilities 
community. Civil rights pioneers, if you will like Allen Reich 
and Justin and Yoshiko Dart, Tony Coehlo, a former Member of 
Congress, a colleague who I am proud to call friend, Senators 
like Senator Kennedy and Senator Harkin and the distinguished 
Ranking Member of this Committee, Jim Sensenbrenner and so many 
others. They all played an unmistakable role in the passage of 
the ADA which codified the collective ideal that no one should 
suffer discrimination because of a disability. It shattered 
barriers, opening schools, sidewalks, public transportation, 
public accommodations and work places to millions of 
individuals.
    And we're also making progress even today in the halls of 
Congress. When I arrived 10 years ago as the first quadriplegic 
to serve in the House, some changes had to be made to 
accommodate my service, beginning with Speaker Hastert and 
continuing on under Speaker Pelosi's leadership. I've been 
overwhelmed by this bipartisan effort and by the commitment to 
make the Capitol complex fully accessible to Members of 
Congress, staff and visitors.
    Let me say that I am particularly happy to report, as 
leader Hoyer mentioned, that the Speaker's rostrum now has just 
been made fully accessible to wheelchair users.
    On Monday, I will have the truly humbling honor and 
thrilling experience of presiding over the House of 
Representatives for the very first time. Let me say that I've 
often said that I may be the first quadriplegic Member to serve 
in Congress, but I certainly will not be the last. And I am so 
excited for all those people with disabilities who will come 
after me and who will serve in this body. I hope that this 
historic moment will serve as an inspiration and reminder to 
all that we can always overcome challenges, always overcome 
obstacles, and that we can always reach new heights. We just 
need the tools to do it.
    It is more important than ever that we connect businesses 
with resources to create more employment opportunities. 
Obviously, our work is not yet done until every person with a 
disability who can work and wants to work can find a job.
    We also make transportation and technology more accessible 
and available, and we must provide more resources to teachers 
and students to achieve a better education. And we must focus 
on income and asset development so families have the means to 
become productive members of their community. And finally, we 
need to inform individuals with disabilities of their rights 
under the ADA and what resources are available should they face 
discrimination at any level.
    Mr. Chairman, we've come so far, but we, so much, of 
course, have more work ahead of us. Disabilities don't 
discriminate on the basis of party affiliation, income or 
gender. Instead, they have, of course, the unique ability to 
unite us in common purpose. If we act in the courage and 
commitment of our predecessors then we will provide the means 
for every individual to realize the true promise of the ADA. 
And I am confident that on this 20th anniversary of the passage 
of the Americans With Disabilities Act, that there is a better 
America, a stronger America ahead of us.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Mr. Langevin follows:]
        Prepared Statement of the Honorable James R. Langevin, 
      a Representative in Congress from the State of Rhode Island

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               __________
    Mr. Nadler. Thank you, and thank you for your testimony and 
for your work on this and other subjects over the years. I know 
our colleagues have very busy schedules, so if there are no 
questions they are excused with our thanks.
    Second panel. I would ask the witness Attorney General 
Thomas Perez to take his place. I understand the gentlelady 
from Wisconsin seeks recognition for a brief statement. Without 
objection, I yield to her.
    Ms. Baldwin. Thank you, Mr. Chairman. I am very pleased 
that you are holding this important hearing on the Americans 
With Disabilities Act and its impact 20 years following its 
passage. And I want to join my colleagues in appreciating the 
testimony of our first panel and our successor panels of 
witness.
    I think it is really important that we take the time to 
recognize this milestone and celebrate the good work that is 
happening across the country to remove barriers and improve 
lives for Americans with disabilities. And I do hope that by 
celebrating this anniversary, we can refocus on the work that 
lies still ahead.
    Mr. Chairman, I want to extend my special thanks to the ADA 
Wisconsin Partnership, the Wisconsin Coalition for Advocacy, 
the Wisconsin Board for People With Developmental Disabilities, 
and the numerous Wisconsin State organizations which have been 
instrumental in promoting full implementation of the ADA across 
the State of Wisconsin. We could not have made the great 
strides we have made without their very hard work and 
attention.
    I also want to recognize the American Association of People 
With Disabilities and thank them for their summer internship 
program here on Capitol Hill for students with disabilities. My 
office was lucky enough to be placed with an intern through 
this program, Meredith Nichols, who has been an incredible 
asset to the work that we do. She is also a fellow Smithy, my 
alma mater. I have been pleased to really get to know her a 
little bit and I'm glad to see she is in the audience here 
today.
    I would like to ask that my full statement be submitted for 
the record and will close by thanking you again, Mr. Chairman, 
for holding this hearing. It is really my hope that it will 
serve to highlight the positive outcomes from the ADA as well 
as provide a strong record of our commitment to take the next 
steps in insuring all Americans with disabilities are able to 
lead full and fulfilling lives. I yield back my remaining time.
    Mr. Nadler. Thank you, without objection, your full 
statement will be recorded in the record.
    [The prepared statement of Ms. Baldwin follows:]
Prepared Statement of the Honorable Tammy Baldwin, a Representative in 
 Congress from the State of Wisconsin, and Member, Subcommittee on the 
            Constitution, Civil Rights, and Civil Liberties

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               __________
    Mr. Nadler. In interest of proceeding to our witnesses and 
mindful of our busy schedules, I ask that other Members submit 
their statements for the record. I now introduce our witness, 
our second panel. Thomas Perez was nominated by President Obama 
to serve as Assistant Attorney General for Civil Rights 
Division and was sworn in October 8, 2009. Mr. Perez previously 
served as the Secretary of Maryland's Department of Labor, 
licensing and regulation, which protects consumers through the 
enforcement of a wide range of consumer rights, including the 
mortgage setting.
    From 2002 until 2006 he was a member of the Montgomery 
County Council. Earlier in his career he spent 12 years in 
Federal public service, most of them as career attorney with 
the Civil Rights Division. Mr. Perez later served as Deputy 
Assistant Attorney General for Civil Rights under Attorney 
General Janet Reno. He received a bachelor's degree from Brown 
University, a Master's of Public Policy from the John F. 
Kennedy School of Government, and a Juris Doctorate from 
Harvard Law School.
    I am pleased to welcome you, your written statement will be 
made part of the record in entirety. I would ask you to 
summarize your testimony in 5 minutes or less. I don't have to 
tell you what the light means, you've been here before. So--
before we begin it is customary for the Committee to swear in 
its witnesses. Please stand and raise your right hand to take 
the oath.
    [Witness sworn.]
    Mr. Nadler. Thank you. Let the record reflect the witness 
answered in the affirmative. Mr. Perez, you are recognized.

TESTIMONY OF THE HONORABLE THOMAS E. PEREZ, ASSISTANT ATTORNEY 
  GENERAL, CIVIL RIGHTS DIVISION, UNITED STATES DEPARTMENT OF 
                            JUSTICE

    Mr. Perez. Thank you, Mr. Chairman. It is an honor to be 
back in front of your Committee. Thank for your leadership on 
this and so many other issues. And I want to also to thank 
Ranking Member Sensenbrenner for his unflagging leadership and 
being a consistent voice on behalf of people with disabilities, 
as well as his wife, Cheryl Sensenbrenner who has been 
recognized appropriately with great frequency.
    I also want to thank Chairman Conyers for his leadership, 
not only on this, but so many other issues affecting vulnerable 
people. I would be remiss if I didn't thank the former Attorney 
General Thornburgh, who among other things, gave me my first 
job at the Department of Justice in 1989. And I will also note 
for the record that he was my boss's boss, because Attorney 
General Holder also worked as a career civil servant under 
Attorney General Thornburgh, who also has a wife who has been a 
champion of disability rights. So I want to say thank you to 
all of them and so many others.
    The enactment, as you know, of the ADA, was a model of 
bipartisan efforts to advance the greater good. The ADA has 
literally opened doors and opportunities for individuals with 
disabilities across the Nation. At the Civil Rights Division, 
we have used all of our tools in our law enforcement arsenal to 
give full force to the meaning of ADA. We have filed lawsuits 
and reached consent decrees, filed the amicus briefs and 
obtained other critical relief in a number of cases.
    We have also a robust technical assistance program that has 
helped millions of people understand the ADA. In a typical week 
through the ADA information line, we answer thousands of calls 
from businesses, government officials, people with disabilities 
and concerned citizens and ada.gov receives more than 1.5 
million hits.
    The ADA mediation program has helped resolve complaints 
more effectively, efficiently, and equitably. Since January 
2001 we have successfully completed more than 2,000 mediations. 
Under Project Civic Access, we work cooperatively with local 
governments to identify barriers and develop plans for 
compliance. We have reached over 180 agreements to date.
    We continue to use our regulatory authority to give full 
force and meaning to the ADA. In fact, the Department will soon 
be publishing four advance notices of proposed rulemaking 
seeking public comment on establishing accessibility 
requirements for Web sites, movie theaters, equipment and 
furniture, including but not limited to medical equipment, and 
911 call-taking technology. As so many people have pointed out, 
we have, indeed, accomplished a lot, but as my former boss, 
Senator Kennedy often said, civil rights is the unfinished 
business of America and disability rights is no exception.
    One of the biggest challenges we face is the unnecessary 
institutionalization of people with disabilities. For so many 
people with disabilities, as we will hear from our one witness, 
institutionalization deprives them of the ability to make even 
the most basic decisions about their lives. In 1999 the court's 
decision in the Olmstead case recognized that the unjustified 
institutionalization of people with disabilities violates the 
ADA. And our Olmstead enforcement has been a top priority of 
the division.
    Over the past year, we filed briefs in cases in 
Connecticut, Virginia, North Carolina, Illinois, Florida, New 
Jersey, California, and filed lawsuits in Arkansas, Georgia and 
intervened in a case in New York. We have been involved in a 
case in Florida where we obtained a Federal ruling for a woman 
named Michele Haddad, a person with a disability who was living 
at home. And the only way she could continue to live in a home, 
according to the State, was to go into a nursing home and stay 
there for at least 60 days and then apply to go back home, that 
made no sense to us and fortunately that made no sense to the 
court.
    Meanwhile, in the last 20 years, technological advances in 
the way we communicate, learn, play and work made life easier 
for a lot of people with disabilities, but new technologies 
have also posed significant challenges. It has been the 
position of the Department since the late '90's that Title III 
of the ADA applies to Web sites. I mentioned the notice of 
proposed--the input that we will be seeking on this issue, but 
we are not waiting for that input to enforce the ADA. We 
reached a settlement recently in a case involving the use of 
the Amazon Kindle by a number of universities, because the 
Kindle was not fully accessible for people with disabilities.
    In addition to reaching those settlements with five 
universities, we worked together with the Department of 
Education to issue a letter to all college and university 
presidents nationwide asking them to voluntarily refrain from 
requiring the use of any devices that are not accessible to all 
students.
    We still confront hardened attitudes and blatant 
discrimination, such as an attorney who refused to allow a 
perspective client to bring her guide dog into his office. An 
RV park that refused to allow an HIV positive child of a family 
that was on vacation at that park to use the swimming pool and 
shower facilities. We have indeed made a lot of progress, but 
regrettably, we have a lot of work that remains ahead.
    I am proud to serve with the dedicated career professionals 
in the Department of Justice who, in the finest tradition of 
Attorney General Thornburgh and all who have followed him have 
made enforcement of the Americans With Disabilities Act a top 
priority.
    Thank you for your time, sir. I'm happy to answer any 
questions you may have, Mr. Chairman.
    [The prepared statement of Mr. Perez follows:]
          Prepared Statement of the Honorable Thomas E. Perez

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Nadler. I thank our witness and will begin the 
questioning by recognizing myself for 5 minutes.
    You said the Department will soon issue regulations for 
Title II and III to address new issues that have come up since 
regulations were last published in 1992. We pressured deputy 
Mr. Bagenstos on this issue in our April hearing, so this is 
welcome news. Can you give us more detail on your current 
timeline on issuing those upcoming regulations, and include 
clarification and confirmation of the Department's long-
standing position on the Title III of the ADA applies to Web 
sites? I think you just implied that by talking about Kindles.
    Mr. Perez. I just mentioned that. And again, we will very 
soon be issuing the four advanced notices of proposed 
rulemaking, and those, again, apply to the issues of 
accessible--accessibility requirements for Web sites, 
captioning in movie theaters, equipment and furniture. We've 
heard a lot about accessibility of medical requirement, health 
reform is a key development, but if a person with a disability 
can't access the doctor's office or access the medical 
equipment, then having insurance is Pyrrhic. And so we're 
asking about that.
    And then also 911, the next generation 911 call-taking 
technology. And so we're soliciting public input on all of 
those areas. We're also, as you correctly point out, and I hope 
that we can complete this work in the very near future on the 
broader Title II, Title III, all the disability regs that you 
had mentioned and Mr. Bagenstos mentioned. And I can assure you 
that I have people behind me that have been working feverishly 
and many more who can't be here because they continue to work 
feverishly because we recognize the critical importance of this 
issue.
    Mr. Nadler. I appreciate that. Now, in addition to Web 
sites, you mentioned other technologies in your statement 
including E-readers, ticket kiosks, cell phones. I assume those 
will also be covered.
    Mr. Perez. Yes, we are looking at all those issues. 
Technology should be the best friend of a person with 
disabilities.
    Mr. Nadler. Well, that answers my next question, I think. 
Will the guidance be sufficiently forward looking to provide 
some guidance if technologies continue to evolve.
    Mr. Perez. We sure hope so, and that's where we're looking 
for the public to comment on. We certainly want to make these 
regulations enduring documents that can survive the evolution 
of technologies.
    Mr. Nadler. So you want to broaden the scope to ensure 
you're not lagging behind this technology.
    Mr. Perez. I would agree.
    Mr. Nadler. During a Senate HELP Committee hearing on 
Olmstead in June, where you also testified, another witness 
Robert Bernstein, president and director of the Bazelon Center 
here in Washington, testified that, and I'll quote, ``positive 
outcomes in support of housing can be achieved at a cost lower 
than or, at most, equal to institutional care.'' Do you agree 
with that, I assume?
    Mr. Perez. I do. And the Olmstead decision, as I said, 
giving meaning to that is a critical priority. I personally met 
with the governor of Georgia to talk about Georgia's 
compliance, and we have a lawsuit pending against Georgia. I 
hope we can resolve it and create a template for the work 
elsewhere. Creating sustainable housing is a critical component 
because as you move people in the communities, you have to have 
the community infrastructure.
    Mr. Nadler. You might consider meeting with the Mayor of 
New York because we have a case in front of Judge Garaufis and 
the Mayor and some others seem to be resistant to his 
conclusion on this.
    Mr. Perez. We have a full docket of cases, Mr. Chairman, in 
front of Judge Garaufis, including the Fire Department of New 
York City and the case that you mentioned.
    Mr. Nadler. In many of the Olmstead enforcement cases, the 
Department participates as amicus or intervenes in existing 
suits that have been brought by protection advocacy agencies. 
That is to say, the Congressionally-created disability rights 
agencies that represent and advocate for people with 
disabilities in each State. It appears that the P&A system is 
critical part of the ADA enforcement scheme. Would you agree 
with that, and how well do you think it is working?
    Mr. Perez. I absolutely agree with that. And when you look 
at the cases that we're doing across the country, Georgia, for 
instance, we would not be able to be where we are without the 
help of the P&As. And in fact, in the Connecticut brief that we 
filed a while back, the issue was standing for the P&A, and so 
we have recognized that P&As must serve the role in many cases 
of that private Attorney General and that is why I 
wholeheartedly concur with your statement.
    Mr. Nadler. Thank you and lastly with regard to the P&As 
Olmstead enforcement work, are those often class action suits? 
Class action--do you think that these class action suits are an 
effective way to bring these cases, and is there anything about 
how such cases are being brought that you could recommend 
needing change?
    Mr. Perez. We have been using a number of tools in our law 
enforcement arsenal to address the Olmstead issue. Some of the 
cases have been individual, some have been institution wide. 
And right now, I feel like we've been well equipped to address 
the Olmstead issues, except that they exist in so many States 
across the country. So we have a great volume of work, and will 
continue to put as many resources as we can to bear on this.
    Mr. Nadler. Thank you very much, my time has expired, I now 
recognize the distinguished Chairman of the full Committee for 
5 minutes.
    Mr. Conyers. The gentleman from--thank you very much. We 
appreciate all your hard work. You sent me this process and 
procedure for beginning the regulatory process to get the law 
in motion. As we all know, the law can't become effective until 
the regulations are created for it to guide all that are 
involved. Could you go through that for me, what you sent me?
    Mr. Perez. Sure. I sent you a list that had paragraphs on 
it. The first 2 paragraphs, this is basically a to-do list in 
the ADA regulatory front. And the first two items, final rules 
implementing Title II of the Americans With Disabilities Act, 
that applies to State and local governments. Final rules 
implementing Title III of the ADA, that's the public 
accommodations piece. And as I mentioned, Mr. Chairman, we are 
feverishly working on those and hope to complete them as soon 
as possible.
    The final three on that list, are the ANPRMs on the issue 
of Internet accessibility. If you're applying for a job these 
days and most places, people apply online, and if you're a 
person with a disability and the Web site isn't accessible, 
it's hard to get that job and that is perhaps one explanation--
--
    Mr. Conyers. Define ANPRM.
    Mr. Perez. The ANPRM is an acronym that basically, it's an 
advanced notice of proposed rulemaking and what we're seeking 
is public input in the case of the accessible Web sites. What 
people in the general public think about how Web sites should 
be regulated, and that will inform our judgment in putting 
forth a notice of proposed rulemaking. And so when you put out 
the advance notice of proposed rule making, it ensures that the 
notice of proposed rule making that comes out later is more 
fully informed.
    Mr. Conyers. We wanted you to talk about the, finally, the 
challenges of Title II and Title III, how the governments would 
be involved in II, and how public accommodations would be 
involved in III.
    Mr. Perez. Well, we continue--the challenges in Title II 
include the fact that there are so many States where we have 
seen people with disabilities who are unnecessarily 
institutionalized, and that's why to get back to Chairman 
Nadler's question about the role of P&As, we have these 
challenges across the country. And so the volume of work is 
remarkable. In so many--yes, sir.
    Mr. Conyers. You know what you're saying is that there are 
so many seniors that are warehoused in institutions at the 
State and local level, right?
    Mr. Perez. Well, I'm actually saying that there are people 
of all ages that are unnecessarily institutionalized. The 
Georgia case for instance, there was a 14-year-old girl who had 
a psychiatric issue, she could have lived in the community, but 
because of the absence of a community infrastructure, she was 
in an institution. They didn't know how to treat her properly. 
And so one of the side effects of her medication was it made 
her constipated, and because she wasn't treated properly she 
quite literally, her bowels imploded and she died. She did not 
have to die, Mr. Chairman, but she did.
    And that is an example of what happens when we have 
situations like this. So Olmstead, as you will see from talking 
to one of the witnesses who will be here, is about real people 
who are overcoming barriers, but then real people who have 
frankly unnecessarily lost their lives.
    Mr. Conyers. So there is a continuing problem of old people 
and the wrong people being institutionalized and we're trying 
to get at it through Title II.
    Mr. Perez. Yes, we are, that's one mechanism that is being 
used. We are also working very closely with our colleagues at 
the Department of Health and Human Services to use the Medicaid 
program and to use other funding streams so that we can promote 
care and treatment in community-based settings instead of 
institutional settings. I testified recently with a Senate 
Committee with my colleague Cindy Mann from the Department of 
Health and Human Services, so money is a great point of 
leverage.
    Mr. Conyers. Some of us are thinking about approaching 
Chairman Nadler about a hearing on this area of the disability 
laws because we need to shine a spotlight on it and maybe we 
will do that.
    I understand the need to seek additional input, but can you 
make sure that the basic legal principle that Title II and III 
require accessible technology like Web sites is issued, maybe 
even sooner than most of the regs.
    Mr. Perez. We're working very hard on all of these, and I 
agree with you that accessible technologies is critical. And so 
we're working on multiple fronts on the advanced notice of 
proposed rulemaking that I discussed. But then on the actual 
cases that we're working on where we already have a 
jurisdictional hook like the Kindle cases, we're working very 
hard on those as well.
    Mr. Conyers. Thank you, Mr. Chairman.
    Mr. Nadler. Thank you. I think we may be able to get one 
more question in before we recess for votes. I will now 
recognize the gentleman from North Carolina.
    Mr. Watt. Thank you, Mr. Chairman. In the unlikely event 
that we might be able to excuse Mr. Perez before the next vote, 
I will be very short. I just want to make a comment about 
having been across the hall at a hearing about unemployment and 
how we address that. I was about to miss this hearing and how 
delighted I am that I came in to hear the testimony of Steny 
Hoyer--as least the end of the testimony of Steny Hoyer and our 
colleague, Jim Langevin, and how inspiring that has been.
    So I am fully supportive, and it sounds like the Department 
of Justice has its hands full doing this work.
    And, with that, I will yield back the balance of my time.
    Mr. Nadler. I thank the gentleman.
    The gentleman from Virginia is recognized.
    Mr. Scott. Thank you, Mr. Chairman.
    And thank you, Mr. Perez, for being with us today.
    When we passed the bill in Virginia, one of the constant 
refrains was the question of what is a reasonable 
accommodation. Do you have complaints over that question, 
whether a requested accommodation is reasonable or not?
    Mr. Perez. That is an issue that continues to get 
litigated, and it is very fact-specific.
    Mr. Scott. What kind of expenses do you impose on people 
under the idea of being reasonable?
    Mr. Perez. Well, again, it is difficult to give a one-size-
fits-all answer to that question. There are certainly expenses 
that can be imposed, and the determination a court has to make 
is whether the expense becomes so prohibitively expensive as to 
constitute fundamental alteration of the program. And those 
cases are always, you know, very much fact-specific. And we 
obviously have had a lot of success in terms of making entire 
communities accessible through our projects, civic access, and 
other programs.
    Mr. Scott. Many facilities are grandfathered because they 
were built before 1990. Are we having problems with the fact 
that they are not compliant?
    Mr. Perez. We sometimes have challenges in communities that 
have those older structures. And we have worked very hard. I 
mentioned the technical assistance that we provide. It has been 
our experience, quite frequently, that communities want to come 
into compliance even if there may not be a statutory mandate.
    And so, we have architects that are actually on staff in 
our Disability Rights Section. And so, they are put to robust 
use in a host of circumstances: Stadiums come to mind, a lot of 
stadiums that were constructed long ago, things of that nature.
    Mr. Scott. Does the Department charge for that advice?
    Mr. Perez. I would have to look into that. I don't know the 
answer to that, sir.
    Mr. Scott. In terms of employment discrimination and 
enforcement of discrimination, are you enforcing religious 
discrimination, as well? For example, are we still allowing 
Federal contractors to practice religious discrimination if 
they call themselves faith-based?
    Mr. Perez. Well, we have a number of cases involving--there 
is a transit administration--it is not an ADA case, but I think 
it was in New York, involving discrimination against people who 
wear a headscarf in the workplace.
    We had a case recently in Oregon where we worked with the 
State of Oregon. They had a law on the books that had been a 
longstanding law that discriminated against religious 
minorities in the school context. We worked to get that 
repealed.
    And we will continue to work on those issues as the facts 
present.
    Mr. Scott. And is it the policy of this Administration to 
allow discrimination based on religion by people who are using 
Federal money?
    Mr. Perez. No, it is not, sir.
    Mr. Scott. Can faith-based organizations running Federal 
programs discriminate based on religion?
    Mr. Perez. Those issues have been the subject of a lot of 
review, and it is my understanding that those continue to be 
under review at the White House and with all of the affected 
agencies.
    And so I would prefer to get back to you with a precise 
answer to that question, because I know there has been fairly 
robust dialogue in that area across government because a number 
of questions have been raised in that area.
    Mr. Scott. You are the Assistant Attorney General for Civil 
Rights?
    Mr. Perez. That is correct, sir. And there are a number of 
other entities that are involved in the implementation of these 
laws throughout various agencies.
    Mr. Scott. Is it possible for a faith-based organization 
running a Federal program to discriminate solely on the basis 
of religion? That is, to have a policy that, say, we don't hire 
Catholics and Jews. I mean, is that possible?
    Mr. Perez. Again, as I think I mentioned, the Department 
continues to be committed to ensuring that we partner with 
faith-based organizations in a manner that is, indeed, 
consistent with our laws. And we, as I said, have a robust 
process of evaluation under way to address the issues that are 
the subject of your questioning.
    Mr. Scott. Is that a ``yes'' or a ``no''?
    Mr. Perez. Again, we continue to be committed----
    Mr. Scott. What is the prohibition against a faith-based 
organization practicing religious discrimination in employment 
with Federal money?
    Mr. Perez. Well, again, sir, I am happy to convene the 
appropriate people in the Federal Government who have been 
spearheading this issue to sit down and discuss the concerns 
that you have.
    And, again, we remain committed to ensuring that we partner 
with faith-based organizations in a manner that is consistent 
with all of our laws.
    Mr. Scott. You can't give a ``yes'' answer, that this 
Administration allows the discrimination or doesn't allow the 
discrimination?
    Mr. Perez. Again, sir, we are committed to rooting out 
discrimination, and we are committed to ensuring that we 
partner with faith-based organizations----
    Mr. Nadler. The----
    Mr. Perez [continuing]. In a manner that is, indeed, 
consistent with our laws.
    Mr. Scott. I think the Chairman is rescuing you from this 
line of questioning.
    Mr. Nadler. I am, indeed. The time of the gentleman has 
expired, and we have very little time right now.
    The gentleman from Arizona.
    Mr. Franks. Mr. Chairman, there is some bipartisanship here 
today, and I want to try to keep it. I don't often quote 
Democrats, but there was a famous Democrat by the name of 
Hubert Humphrey, who once said that, ``Society is measured by 
how it treats those in the dawn of life, those in the shadows 
of life, and those in the twilight of life.'' And I think there 
is some effort being made today to try to help those in the 
shadows of life, and I commend it.
    And I want to especially express my appreciation to Mr. 
Sensenbrenner for his commitment in this area. I know there are 
a lot of areas of potential disagreement.
    I was struck by the fact that, in your last discussion 
there, that it sounded like you were suggesting that there 
might be some change in policy in this Administration, as 
opposed to the last Administration, related to religious groups 
being able to hire on religious grounds. I think that is what 
my colleague was trying to get at.
    And, as I understand, there is not a change in policy 
because of the longstanding realization that, to suggest that 
religious organizations like churches couldn't hire--you know, 
that a Jewish synagogue had to hire a Baptist rectory or 
something like that, would be sort of ridiculous. And I am 
hoping that we haven't changed the policy and that we continue 
to recognize religious freedom in that regard, to be able to 
hire based on a religious basis.
    And I commend your efforts to repeal any law that would say 
that someone couldn't wear a scarf of a Muslim perspective. 
Religious freedom is at the core of all of our other freedoms.
    And, with that, Mr. Chairman, I will yield back.
    Mr. Nadler. I thank the gentleman for yielding back.
    We now have 54 seconds, but 346 people haven't voted yet, 
so it is not that dire.
    We have two votes on the floor. After this vote, there is a 
5-minute vote. We will recess the hearing and reconvene as soon 
as those two votes are finished.
    I thank Mr. Perez and excuse him.
    And while we are gone, I hope our next panel--which is to 
say, Attorney General Thornburgh--will take a seat at the 
table.
    The hearing is recessed until the conclusion of these 
votes.
    Mr. Perez. Thank you, Mr. Chairman.
    [Recess.]
    Mr. Nadler. We will now proceed with our third panel. The 
witness has just taken his place. In the interest of time, I 
will now introduce him.
    Richard Thornburgh is currently counsel to the 
international law firm of K&L Gates LLP in its Washington, 
D.C., office. He previously served as Governor of Pennsylvania, 
Attorney General of the United States under Presidents Reagan 
and George H.W. Bush, and Under Secretary General of the United 
Nations.
    As Attorney General, Mr. Thornburgh played a leading role 
in the enactment of the Americans with Disabilities Act and its 
implementation. And as the parent of a son with physical and 
intellectual disabilities, he has taken a special interest in 
the needs of people with disabilities.
    In 2002, he received the Wiley Branton Award of the 
Washington Lawyers' Committee for Civil Rights and Urban 
Affairs in recognition of his commitment to the civil rights of 
people with disabilities.
    Mr. Thornburgh was educated at Yale, where he obtained an 
engineering degree, and at the University of Pittsburgh Law 
School.
    Before I turn the microphone over to Attorney General 
Thornburgh, I would also like to recognize former Attorney 
General Janet Reno, who sends her regrets that she is not able 
to join us today.
    Under Attorney General Reno's stewardship, the Department 
of Justice set a standard for the vigorous and appropriate 
enforcement of the ADA that has continued to this day. While we 
miss having her with us to celebrate this 20th anniversary, we 
thank her for the key role that she has played in creating a 
legacy of equality and justice for people with disabilities.
    Now I am pleased to welcome you, Attorney General 
Thornburgh. Your written statement will be made part of the 
record in its entirety. I would ask you to summarize your 
testimony in 5 minutes or less.
    Before we begin, it is customary for the Committee to swear 
in its witnesses.
    [Witness sworn.]
    Mr. Nadler. Let the record reflect the witness answered in 
the affirmative.
    I now recognize you for your statement.

         TESTIMONY OF THE HONORABLE RICHARD THORNBURGH

    Mr. Thornburgh. Thank you, Chairman Nadler--and I also 
extend my thanks to Ranking Member Sensenbrenner, and ask that 
you convey my best wishes to Chairman Conyers, a long-time 
friend and sometime adversary over the years--to have the 
opportunity to be with you today to reflect on the 20th 
anniversary of the signing into law of the Americans with 
Disabilities Act.
    You will forgive me, I trust, if I share with you today 
some of my own experiences and views, both professional and 
personal, as a long-time advocate for disability rights. In 
particular, I want to focus on the role played in my life by 
the ADA, the most important civil rights legislation passed 
since the 1960's.
    Let me begin with a story. As some of you may know, on July 
1, 1960, 50 years ago, our son Peter, then an infant only 4 
months old, was involved in a dreadful automobile accident that 
took the life of his mother, my first wife.
    For a considerable period of time thereafter, Peter's life 
was very much in doubt. He had suffered multiple skull 
fractures and extensive brain damage that were to result in 
severe physical and intellectual disability. After 6 months of 
intensive hospital care under the loving supervision of the 
Sisters of Mercy in our hometown of Pittsburgh, Pennsylvania, 
Peter returned home just before Christmas, and we began life 
anew.
    After spending 3 years as a single parent to Peter and his 
two older brothers, I was blessed to meet Ginny Judson, a 23-
year-old schoolteacher. And we were married 46 years ago and, 
in 1966, added a fourth son to our family.
    She is today the director of the Interfaith Initiative at 
the American Association of People with Disabilities here in 
Washington, helping religious congregations of all faiths to 
identify and remove barriers to worship for people with all 
types of disabilities.
    But her most important advocacy was and is on behalf of our 
son Peter. Peter Thornburgh today, although still very limited, 
lives semi-independently in a supervised apartment near 
Harrisburg, Pennsylvania. He works as a volunteer in the local 
food bank, where, in his words, he ``helps poor people.'' He 
has his own circle of friends and is welcomed by his church and 
in many other community activities. We have been proud to share 
Peter's journey with him.
    As good fortune would have it, I have also been blessed 
with opportunities to apply lessons learned from being Peter's 
dad in public life, as well, most notably as Attorney General 
of the United States in the Cabinet of President George H.W. 
Bush, where I served as the point man in the effort to obtain 
congressional passage of the ADA.
    The ADA, as has been noted, developed bipartisan support in 
the Congress under pressure from the disability community, in 
cooperation with parents, professionals, and providers, who saw 
the need to extend the protection of civil rights laws to those 
with disabilities. The bill was not a quota bill, not one 
designed to give special preference or set-asides to persons 
with disabilities, but was fashioned to empower them to 
participate in the mainstream of American life.
    As I noted when I testified on behalf of the Bush 
administration before this Committee on October 12, 1989, the 
ADA is fair, balanced legislation. It ensures that persons with 
disabilities in this country enjoy access to the mainstream of 
American life. It builds on an extensive body of statutes, case 
law, and regulations to avoid unnecessary confusion. It allows 
maximum flexibility for compliance, and it does not place undue 
burdens on Americans who must comply.
    On July 26, 1990, the ADA was signed into law by President 
Bush on a glorious summer day in a ceremony held on the south 
lawn of the White House. Some 3,000 persons, with and without 
disabilities, and their family members looked on and cheered 
and cheered as President Bush called to let the shameful wall 
of exclusion finally come tumbling down.
    After 20 years of the ADA, we see significant changes, as 
the Chairman and the majority leader have noted. We see new 
designated parking spaces at the local convenience store, a 
ramp at the neighborhood movie theater, a sign language 
interpreter at public gatherings, Braille on the ATM machines 
or the elevators of the local hotel, and, most of all, persons 
with disabilities gaining more access to community living and 
to employment, although clearly not yet in the numbers we would 
like to see.
    Employment, in particular, is problematical, as there has 
been no net increase in the percentage of Americans with 
disabilities employed in the past 20 years.
    The ADA has been good for people with disabilities, but, 
more important, it has been good for America, helping to 
fulfill the promise inherent in our democratic ideals.
    Yes, progress is being made, but it is no time to rest on 
our laurels or to savor our accomplishments. Important issues 
remain unresolved, as the ADA has moved from public debate in 
legislative halls all of the way to the United States Supreme 
Court.
    Increasingly, our courts have been called upon to decide a 
number of issues arising from passage of the ADA. While the 
results have been mixed, Supreme Court cases such as Olmstead 
and Lane v. Tennessee, in each of which I was proud to file a 
friend of the court brief, have buttressed the right of people 
with disabilities to participate more fully in the mainstream 
of American life.
    And remedial legislative action has been undertaken, most 
notably in the ADA Amendments Act of 2009, to cure some of the 
anomalies arising from adverse court decisions in the field of 
employment law.
    In closing, Mr. Chairman, I must tell you that when I look 
back on all that has been accomplished through the passage of 
the ADA and other laws that date all of the way back to section 
504 of the Rehabilitation Act of 1973, I quickly come to 
realize that none of these statutes were on the books in 1960 
when our beloved son Peter was so seriously injured. It is only 
during his lifetime that we have taken these giant steps 
forward.
    On behalf of all of the Peter Thornburghs of our Nation and 
their families and loved ones, I extend to you our heartfelt 
thanks and congratulations for your willingness to fight for 
their dignity and respect.
    We wish this Congress Godspeed in further endeavors, 
including the ratification in the Senate of the United Nations 
convention on disability rights. And we pay tribute to this 
landmark effort, this ADA, which empowers all people to live as 
they choose in their communities. What a magnificent way to 
celebrate human dignity, is the anniversary--20th anniversary--
of the ADA.
    And I thank you, Mr. Chairman.
    [The prepared statement of Mr. Thornburgh follows:]
         Prepared Statement of the Honorable Richard Thornburg

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Nadler. I thank you.
    I will now recognize myself for 5 minutes to question the 
witness.
    Sir, you mentioned that your son Peter lives semi-
independently in a supervised apartment near Harrisburg. What 
does it mean to Peter that he lives in an apartment rather than 
in a larger institutional setting?
    Mr. Thornburgh. It means that he is able to participate in 
his community, that he is able to make decisions about his 
lifestyle, with the help of staff, to be sure. But he is not 
living the regimented, compartmentalized, segmented life that 
institutional care involves.
    One of the major challenges we had to face when I was 
Governor of Pennsylvania was the preponderance of the 
population of people with mental and psychiatric problems being 
confined in institutions. And I remember very well the day when 
our appropriations for community-based living first exceeded 
the appropriations for institutionalized care. That was the day 
we broke out the champagne, Mr. Chairman, because that was a 
distinctive message sent to the people of Pennsylvania.
    Now, there is no question that there are some persons who 
require institutional care. And I know parents who have had to 
face up to that reality. That is something that we had to 
consider in Peter's case, to be honest with you, at the time, 
because there was so little development of community-based 
care. But we had the right advice and good support, and he has 
been able to live a much more fuller life.
    Mr. Nadler. And what does it mean to you and the rest of 
the family, in a way beyond what it means to him? I think you 
may have answered that already.
    Mr. Thornburgh. Well, obviously, those of us who have 
disability in our families become, almost automatically, 
advocates for disability rights. We learn a lot of things. We 
learn that disability is nothing to be ashamed of, that it is 
part of the fabric of life. We learn of the potential that 
exists for using the abilities of people with disabilities 
without focusing strictly on their disability. We learn of the 
vast support network that is out there that is waiting to be 
utilized and, if utilized, can magnify the opportunities for 
people with disabilities.
    I think that there is a fraternity among parents and family 
members of people with disabilities that has few rivals in this 
Nation.
    Mr. Nadler. Now, we sometimes hear arguments or concerns 
that complying with the requirements of the ADA is just too 
costly. You were the Governor of Pennsylvania during 
economically tough times. How would you respond to that 
concern?
    Mr. Thornburgh. I'm sorry, the question was about 
accommodating----
    Mr. Nadler. That compliance with the ADA is sometimes said 
to be too costly. You were the Governor during tough times. How 
would you respond to that?
    Mr. Thornburgh. We were sensitive to that during the time 
that the bill was wending its way through, and we heard those 
remonstratives about the additional cost it would involve.
    Let me answer that in two ways, first by personal example. 
When I was the Attorney General, we took as our number-one 
draft choice in the White House fellows that were available 
that year a man, then young man, now deceased, unfortunately, 
named Drew Batavia. Drew had suffered an auto accident and had 
spinal cord injuries and had to rely on his mobile chair to get 
him around.
    But if you walked into Drew's office, you saw this: You saw 
his computer keyboard mounted on the wall and his telephone 
mounted on the wall and his desk raised a little bit so that he 
could slide underneath. And he used a mouse stick to utilize 
both of those. That was a reasonable accommodation, and it is 
one that made him extremely valuable.
    He had a Harvard law degree and a Stanford business degree, 
so he was a real pro. But in olden times, pre-ADA or pre-
sensitivity to these needs, he would have been a neglected 
resource.
    Second question, I wish Attorney General Reno were here, 
because she and I, after 5 years of the ADA, agreed to look 
into the question of cost on accommodations. And we ended up 
writing a joint op-ed piece for The Wall Street Journal, of all 
places, to point out that the average cost of most 
accommodations that were made was minimal--in fact, almost de 
minimis, as the lawyers would say. And I am advised that the 
average cost today has gone no higher.
    What it requires is some ingenuity and working with the 
person with the disability to see what their real needs are. 
There is no one-size-fits-all answer to these things.
    So I think that is an objection that just doesn't play out 
in reality and is specious, at best.
    Mr. Nadler. Thank you.
    Let me ask you one final general question. What do you 
think Congress should do next to ensure that the promise of the 
ADA is kept? What should we do?
    Mr. Thornburgh. I think the emphasis has to be on 
employment. It is a tough nut to crack. We have difficult 
economic times. Able-bodied people, people without disabilities 
are unable to get work, in many cases, in spite of vast 
qualifications. But that shouldn't be an excuse for neglecting 
the initiatives that are necessary to build an economic base 
for people with disabilities.
    And I think the answer there lays, in some respects, in the 
field of technology. I'm sure you, as I, have seen many people 
who have severe disabilities--an inability, in some cases, in 
cerebral palsy, for example--to articulate brilliant thoughts, 
and yet, through the use of technology, can.
    Mr. Nadler. Stephen Hawking comes to mind.
    Mr. Thornburgh. Yes, exactly, there you go. But there are 
more Stephen Hawkings out there waiting to be developed. And 
through the application of technology and a sensitive aid 
structure for those folks, they will be important contributors 
to our future growth. So I think that is probably the area I 
would put the greatest emphasis on.
    Number two, Olmstead, you know, how do we further and 
propel the movement of people from institutionalized care into 
group homes and into community-based living.
    Mr. Nadler. Thank you.
    My time has expired. I recognize the gentleman from 
Virginia.
    Mr. Scott. Thank you.
    Governor, you were Governor before the ADA, is that right?
    Mr. Thornburgh. I was.
    Mr. Scott. But as Governor, you can imagine that there are 
cost challenges in complying with the ADA. Could you speak to 
how Governors comply with State buildings, bringing them into 
compliance?
    Mr. Thornburgh. Well, I think what we did in Pennsylvania, 
partly because of my own sensitivity to these problems, was to 
try to be a little bit ahead of the curve. We would search out 
people with disabilities who were qualified to do State jobs 
and see what the needs were that they had that could be 
rectified, in terms of architectural barriers, first.
    The attitudinal barriers were the things that had to go, 
and mostly by example, of getting somebody who had a disability 
into a job, watching how they progressed and seeing how well 
they did. That broke that barrier down pronto, no question 
about that.
    But the thing about the ADA, Congressman Scott, is that it 
was the catalyst and the symbol that propelled the change that 
truly has been dramatic. I mean, when you and I stop to think 
of when we grew up what kinds of symbols of inclusion there 
were around--nada. I can't think of any. And yet, as we have 
all talked about today, what we have come to expect is to see 
those kinds of aids that sometimes are very subtle, sometimes 
very dramatic, that empower people to live what we would call a 
normal life.
    Mr. Scott. Now, also, as a Governor, you know the 
challenges in funding things like supportive housing. One of 
the challenges that I dealt with as a State legislator was what 
we called the ``woodwork effect.'' It is much cheaper to have 
someone with home health care than going into a nursing home. 
But when you provide the home health care, there are so many 
people who are eligible for that that were at home roughing it, 
that the total budget actually goes up on that line item.
    Do you have the same problem with providing supportive 
housing, that, although, as you have suggested, it is cheaper 
in supportive housing than in an institution, that once you 
start providing the service, the costs go up, and to save money 
on the State budget, you just wait for people to go into an 
institution and actually save money, doing that, on the overall 
budget?
    Mr. Thornburgh. Yeah. I can only speak theoretically as a 
former Governor, because, to be honest with you, during that 
time, the concept of people staying in their homes was just 
developing. The concept of removing them from institutions was 
well under way, and, as I said, we were able to accomplish 
that. But where do you place these people? And that had not 
developed at all.
    What I was intrigued by was my first encounters with 
centers for independent living, for people with physical 
disabilities in particular, which are truly astounding in their 
potential, not just from a money standpoint, but from the 
standpoint of integrating people into the community.
    My fear is that, because of the unknowns inherent in the 
health care reform bill that you all have passed--and I don't 
pass judgment on that, but there clearly are some unknowns 
about the cost factors there; and particularly in Medicaid, by 
expanding the population available, there may be pressure at 
the State level to reduce the amount of services available for 
post-Olmstead services--that it is pretty easy, if you are 
going to cut, to look at that as a source when you are dealing 
with these expanded eligibility provisions. So the jury is 
still out on that.
    But I am a firm believer, from having observed it and 
participated in it, that community-based living is miles ahead 
of any kind of institutionalized care or nursing home care.
    Mr. Scott. I agree with you. The question is funding.
    When you said that you were paying more for home care than 
for institutional care, did you achieve that by increasing home 
care or decreasing institutional care?
    Mr. Thornburgh. My guess? Probably a little of this, a 
little of that. That is what governing is about, isn't it? 
Making tough choices and coming up with a proper balance. 
Because, as we are reminded daily, we don't have unlimited 
resources in this or any other area.
    Mr. Scott. Well, I would hope that we would try to invest 
as much as we can in home health and really relieve a lot of 
pain and suffering and anxiety. So, to the extent that we can 
fund those, I think we are a lot better off.
    Mr. Thornburgh. Count me in.
    Mr. Scott. I appreciate your testimony.
    I yield back.
    Mr. Nadler. I thank the gentleman.
    I recognize the gentlelady from Texas.
    Ms. Jackson Lee. Thank you, Mr. Chairman. This is a very, 
very important hearing, and I thank you and the Ranking Member 
of the Subcommittee for focusing on not only the 20th-year 
anniversary, but what are the next steps, going forward.
    I am reminded of that time of celebration when this bill 
was passed. And I think one of the striking elements of the 
bill was the amazing bipartisanship that it generated, the 
recognition by everyone that it was long overdue.
    And, in that vein, I think the words of President George 
H.W. Bush clearly spoke to the heightened excitement and 
emotion of the time, when he indicated that he considered the 
Americans with Disabilities Act as the Emancipation 
Proclamation for people with disabilities and called for the 
shameful wall of exclusion of people with disabilities from 
Main Street American life to finally come tumbling down.
    And, Governor, Attorney General, I believe that we have 
made some steps toward that. And as the co-chair of the 
Congressional Children's Caucus, I would like to focus you on 
some of the thoughts that I believe you may have raised--and I 
apologize for not hearing your testimony. I was detained on the 
floor.
    But you seem to have stated, to put an emphasis on 
providing community-based services for children and adults with 
disabilities as an alternative to large and isolated 
institutional settings. I would like you to describe some of 
those programs that you may have implemented, the benefits to 
them.
    And, as I recall, on many occasions in my town hall 
meetings, there will always be that one parent, among others, 
that will be vocal enough to come up and ask a question about a 
disabled child. ``What are the resources? My school district is 
not being responsive.'' So I think we still have ways to go.
    But we have made great strides where we have not 
institutionalized those who are disabled, as particularly with 
what we would call mental disabilities, whether it is something 
that is from a physical aspect that disables a child, but also 
from a perspective where one might perceive that they could not 
learn, Down syndrome, for example, where we have found amazing 
success stories.
    But if you could answer that, and then I want to follow up 
with a broader question.
    Mr. Thornburgh. Surely.
    I answer that question with, kind of, two hats on, 
Congresswoman, in this sense: as a parent of a child with a 
severe intellectual disability, now 50 years old; and as one 
who was involved in the negotiations that led to the passage of 
the act and has followed the act in its implementation after 
its passage.
    I don't think anyone can underestimate the impact of the 
Olmstead case in this regard. If the Olmstead case had been 
decided otherwise and given communities across the United 
States an excuse to back off of the deinstitutionalization 
process, which was well under way by that time, we would not be 
talking about progress today. We would be talking about dealing 
with an entirely different population, a truly disabled 
population, institutionalized by our government's activities. 
But mercifully, that didn't happen.
    And although Justice Ginsberg's decision in Olmstead was 
really not as clarion a call in support of the community-based 
treatment model as we would have liked, it did open the door--
well, it, more than that, shut the door on the arguments that 
this was not an admissible way to deal with people with 
disabilities.
    So I think that the mechanisms available are group homes, 
are support to families who retain children with disabilities 
in their homes. Our son lives in an assisted community 
environment. He is semi-independent, as I said, in an 
apartment. All of those, I think, in the aggregate, pale in 
cost when you look at the cost, the massive proven costs on the 
record, of our prior institutional regimen.
    So it can't be a cost factor. And it has to be a factor 
that depends on the wit and the imagination of people who are 
in this field, in government, aided, advised, and abetted by a 
very vocal community of parents and providers and caregivers 
that have traditionally been at the front end of advocacy in 
this country.
    So I don't go down either the path of saying that this is 
too difficult to do or the path that says we can't afford it. I 
think both of those are inadmissible conclusions. But they 
require in the alternative some real thinking and some real 
ingenuity about how we are going to reach that goal.
    And, as you obviously know from your own constituency, how 
they respond when having that kind of environment for 
particularly, a child with a disability, is as rewarding as I 
can imagine.
    Ms. Jackson Lee. It is worth the investment, you are 
saying.
    Just finally, do you see any obvious legal impediment today 
that does not comport with President Bush's pronouncement, as 
well as the fact of the instruction of that act, which said 
that it is a national mandate to eliminate discrimination as it 
relates to individuals with disabilities? Do you see something 
that we should immediately be looking at?
    Mr. Thornburgh. Yeah, I am pleased you mentioned his call 
for the shameful wall of exclusion to come tumbling down. He 
got that line, as you may know, from the fact that the Berlin 
Wall had just--as a shameful wall of inclusion, had come 
tumbling down. And it was a marvelous metaphor and, I think, 
captured the goals of people who were assembled that day, in 
those words in very succinct terms.
    I don't see any--I think the future is unlimited for 
improving the lot of people with disabilities in our society, 
in our culture. Once we get over the hurdle, as I think we have 
had, that this is just simply too expensive or it is too 
difficult--that is not an excuse that Americans have ever 
accepted in any field. And in this area, where the payoff, in 
terms of lives that are enriched by participation in the 
mainstream of America--they should be even less so.
    Ms. Jackson Lee. Thank you.
    I yield back. Thank you very much.
    Mr. Nadler. Thank you.
    And I thank the witness for his participation. The witness 
is excused.
    We will now proceed with the fourth panel. I will ask the 
witnesses to take their place. In the interest of time, I will 
introduce the witnesses while they are taking their seats.
    Cheryl Sensenbrenner is the immediate past board chair of 
the American Association of People With Disabilities, the 
largest nonprofit disability member organization in the United 
States. Mrs. Sensenbrenner has been married to Congressman Jim 
Sensenbrenner, the Ranking Member of the Subcommittee and 
former Chairman of the Judiciary Committee, for more than 30 
years.
    Her younger sister, Tara, has an intellectual disability. 
In 1972, as a passenger in a car accident, Mrs. Sensenbrenner 
sustained a spinal cord injury at the T12 level. Mrs. 
Sensenbrenner has worked in a number of Republican Party 
positions, both before and after her injury.
    Lieutenant Colonel Gregory Gadson is an inspirational 
American whose journey from injury to ability has taken place 
within the military. During his service in Operation Iraqi 
Freedom in 2007, Lieutenant Colonel Gadson was severely injured 
by an improvised explosive device, resulting in the amputation 
of both legs above the knee and severe damage to his right arm.
    A highly decorated military officer, Lieutenant Colonel 
Gadson has served in the U.S. Army for more than 20 years as a 
field artillery officer. He has served in every major conflict 
of the last two decades, including Operation Desert Shield/
Desert Storm, Kuwait; Operation Joint Forge in Bosnia-
Herzegovina; Operation Enduring Freedom in Afghanistan; and 
Operation Iraqi Freedom in Iraq, where he commanded a new unit 
as part of the surge to secure Baghdad in 2007.
    He currently serves as the director of the U.S. Army 
Wounded Warrior Program, which serves the Army's most severely 
wounded, ill, and injured soldiers, veterans, and their 
families, fosters their independence, and supports their 
transition back to active duty or to civilian life.
    Adrian Villalobos is an intern with the National Disability 
Rights Network in Washington through sponsorship from the 
Southern Education Foundation. He is focusing on special 
education and school accessibility policy at NDRN.
    At the age of 8, Mr. Villalobos was diagnosed with a T7 
spinal cord injury after a major car accident left him 
paralyzed from the waist down. He has been an active member of 
the disability community for 17 years.
    Mr. Villalobos just completed his first year of graduate 
studies at the University of Texas at El Paso, where he is 
working toward a dual master's degree in public and business 
administration.
    Casandra Cox is a former resident of an adult home in the 
Bronx who successfully transitioned to her own apartment more 
than 1 year ago. She is a member of the Policy Committee of the 
Coalition of Institutionalized Aged and Disabled, a consumer-
run advocacy organization for adult home and nursing home 
residents in New York City.
    Earlier this year, New York was ordered to begin moving 
residents from several New York City adult homes into supported 
community-based settings as part of a Federal court case, 
Disability Advocates, Inc. v. Paterson. In that case, Federal 
District Court Judge Nicholas Garaufis, of the Southern 
District, found the State violated the ADA's integration 
mandate by housing approximately 4,300 individuals with mental 
disabilities in adult homes which Judge Gaurafis described as, 
quote, ``bearing little resemblance to the homes in which 
people without disabilities normally live,'' closed quote.
    Jonathan Young is chairman of the National Council on 
Disability and a senior counsel at the law firm of FoxKiser. 
Mr. Young previously served in the Executive Office of the 
President as associate director of the White House Office of 
Public Liaison and as project director for the National 
Rehabilitation Hospital Center for Health and Disability 
Research.
    Mr. Young earned his B.A. from Messiah College, his J.D. 
from Yale, and his Ph.D. from the University of North Carolina 
at Chapel Hill.
    I am pleased to welcome all of you. Your written statements 
will be made part of the record in their entirety. I would like 
to remind you to summarize your testimony in 5 minutes or less. 
When 1 minute remains, the light will switch from green to 
yellow, and then red when the 5 minutes are up.
    Before we begin, it is customary for the Committee to swear 
in its witnesses.
    [Witnesses sworn.]
    Mr. Nadler. Let the record reflect the witnesses answered 
in the affirmative.
    And our first witness I will now recognize is Cheryl 
Sensenbrenner.

TESTIMONY OF CHERYL SENSENBRENNER, IMMEDIATE PAST BOARD CHAIR, 
        AMERICAN ASSOCIATION OF PEOPLE WITH DISABILITIES

    Mrs. Sensenbrenner. Thank you, Mr. Chairman. Thank you, 
Congressman Scott. Thank you, Congresswoman Sheila Jackson Lee.
    I will try to be more--the hour is late, and I know that my 
testimony is pretty thick in the written form, so I will try 
just to highlight a few things and go back to the other people 
on the panel.
    We are talking about all that has happened in the last 20 
years. I, myself, am here today as a family member again, 
another a family member. I was here before and after the ADA. I 
have a sister that is disabled. I have a son that is disabled. 
I, myself, am disabled.
    And I look back as I've traveled with my husband over the 
last 20 years and see all the difference that ADA has done, not 
only for our country but globally, and the initiative and the 
different things that countries have done globally by looking 
at the United States.
    I was thinking about the most northern community in the 
entire world, Svalbard, north of Norway, one of the most 
accessible places I have ever been to stay. I was thinking 
about going to the temples in Japan, where I, with my 
wheelchair, can get up any step, any subway, because of the 
accommodations they have there. We should be proud of what we 
have done, but we also should be proud of the leadership that 
we have provided for the world.
    But as I reflect on that progress of the last two decades--
and we have heard it all today--I am going to be a bit negative 
in my approach, because we've got a ways to go. I think it is 
important that we remind ourselves about the pervasive 
discrimination then--and around then and then see what is going 
on now.
    I can remember the cold, snide remarks and the demeaning 
looks that my sister, Tara, who has Down syndrome, got every 
day--Tara, who has Down syndrome and drove a car since she was 
16; Tara, who got her high school diploma; Tara, who keeps on 
wanting to work constantly but, because of the limitations of 
Supplemental Security Income, can't work as much as she wants 
to.
    I think also about when I first got back to work after a 
year in the hospital--a good job. My father was attorney 
general in Wisconsin. We went into the lobby of a bank to cash 
my first check, and a bank executive stares at me and says, 
``People like that belong on park benches out front and not in 
our lobby.'' I remember it very clearly. ``People like that,'' 
he said. ``People like that.''
    People like that are me. People like that are my son. 
People like that are my sister. People like that are some of my 
dearest friends. People like that are countless Americans. 
People like that can be your loved ones, can be your friends, 
or maybe even someday it could be you. We don't know what the 
future brings and whatever shape our age brings. For instance, 
look even today, when we see all of our soldiers coming back 
from Iraq and Afghanistan, what did they know that disability 
would be in their future.
    I told you a little bit about my sister and how much she 
wants to work and she has Down syndrome and how proud I am of 
her. Let me tell you about our oldest son, Frank.
    Frank was diagnosed with attention deficit hyperactivity 
disorder as a young child, and we had our share of challenges. 
Frank is brilliant. Frank is categorized as a genius. But yet, 
to find a school that could provide the right combination of 
structure, mentoring, and challenging academic work, Frank 
could not take a traditional path.
    Frank went for a year of high school in Canada. They gave 
him a degree. Went and got his college degree in the U.K. And I 
am proud to tell you today--and Frank is looking forward to 
this testimony--he struggled, and he deserves everything. He is 
great. Frank is it on the verge of earning a Ph.D. in finance 
from the University of Sydney. And, believe me, he is good. He 
interned for the Banking Committee when he was in high school, 
by the way.
    Also, Frank encouraged me to be tested. Guess who has 
attention deficit disorder besides the other thing? Ta-da. So 
we've really got--we know disability in our family.
    And yet, with education and things, the ADA provides 
protection and encouragement to millions of Americans. We're 
trying to figure our own course through the world of education, 
through the world of employment. We look for help, but we all 
have our own unique learning styles, our own way to show what 
we can do. And sometimes the professionals can't.
    You know, disability is just a natural part of the human 
experience, and that is what the ADA started to make us all 
understand. And we don't ever know when it may come in our life 
or enter, be it friend or ourselves.
    I want to tell you one quick story, if I have time, and 
then one other note.
    You know, we think this is all behind us. In our wonderful 
intern program, we have college students come, work in the 
Federal Government and also on the Hill. Do you know, last 
year, as we went around and we were trying to place some of the 
interns--and it is not hard to place, once you have had one of 
our interns--we were explaining that this particular stellar 
student from Gallaudet would need a sign language interpreter 
doing her functioning within the office. And I'm not trying to 
pick on this intern coordinator, but the coordinator said, 
``Well, what would a deaf person be able to do in a 
congressional office?'' Well, as we all know, a deaf person can 
do what everyone else could do in a congressional office, as 
long as they are provided with reasonable accommodation.
    My hope and expectation is that this Committee will take 
the opportunity by this anniversary and go back and talk to 
your own constituents and talk to the families and find out 
what barriers still exist and how you can help open wide the 
doors to employment, homeownership, and participation in 
society.
    Thank you so much.
    [The prepared statement of Mrs. Sensenbrenner follows:]
               Prepared Statement of Cheryl Sensenbrenner

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Nadler. Thank you.
    Lieutenant Colonel Gadson is recognized.

      TESTIMONY OF LT. COL. GREGORY D. GADSON, DIRECTOR, 
               U.S. ARMY WOUNDED WARRIOR PROGRAM

    Colonel Gadson. Chairman Nadler, Ranking Member, and 
distinguished Members of this Subcommittee, thank you for this 
opportunity to testify today and share my experience as a 
wounded warrior that continues to serve on active duty.
    I am appearing today in my personal capacity. Although I am 
on active duty with the United States Army, my testimony here 
today represents my personal views and does not necessarily 
reflect the views of the Army, the Department of Defense, or 
the Administration.
    See, I was commissioned in 1989 from a United States 
military academy, where I played football for 4 years. And for 
the past 20-plus years, I have continued to live an active 
lifestyle while serving in the United States Army, enjoying 
soccer, scuba diving, hiking, and even skiing.
    In May of 2007, I was severely wounded by an improvised 
explosive device. As a result of those wounds, I lost both of 
my legs above the knee and sustained severe damage to my right 
arm. As you can imagine, my life was turned upside-down. 
Admittedly, prior to being wounded, I had no understanding or 
appreciation of the Americans with Disabilities Act. But since 
then, I have learned a great deal and appreciate its value to 
our society.
    I have been fortunate to travel overseas and am repeatedly 
struck by the fact that, unlike the United States, foreign 
countries do not always consider disabled accessibility a 
priority. In fact, in some parts of the world, accessibility is 
not even a consideration. I understand how fortunate I am to 
live in a country where accessibility is not only the law but 
it is truly embraced.
    In terms of the uniformed services' day-to-day missions and 
functions, adherence to the Americans with Disabilities Act is 
not required. However, with the start of Operations Iraqi 
Freedom and Enduring Freedom, the Army has begun accommodating 
the changing face of its force. The Army has developed and 
expanded existing policies, allowing seriously wounded soldiers 
to continue to serve on active duty.
    From my perspective, the Army leadership embraces the 
spirit and the intent of the ADA. I am a testament that the 
Army leadership understands those who are severely wounded can 
still make valuable contributions through continued service in 
uniform to our Nation. Not only have I been allowed to continue 
to serve, but I have been given the opportunity to flourish, 
grow, and reach my full potential.
    Furthermore, I would like to highlight the Army's efforts 
with respect to accessibility. I am proud to say that I live in 
an ADA-compliant home recently constructed at Fort Belvoir. 
Additionally, all newly constructed Warriors in Transition 
complexes are also ADA-compliant.
    On July 13, 2010, I assumed the duties of director of the 
Army Wounded Warrior Program. The United States Army Wounded 
Warrior Program assists the Army's most severely wounded, ill, 
and injured soldiers and their families. We facilitate their 
transition back into active-duty service or their transition 
into civilian life. It is a program that takes great care in 
making sure that we assist those who have made tremendous 
sacrifice in getting back on their feet.
    Thank you for this opportunity to testify, and I'm ready to 
address any questions you have.
    [The prepared statement of Lieutenant Colonel Gadson 
follows:]
                Prepared Statement of Gregory D. Gadson

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Nadler. Thank you.
    Mr. Young is recognized.

           TESTIMONY OF JONATHAN M. YOUNG, CHAIRMAN, 
                 NATIONAL COUNCIL ON DISABILITY

    Mr. Young. Thank you, Mr. Chairman, Ranking Member 
Sensenbrenner, Congressman Scott, Congresswoman Jackson Lee, 
other Members of the Subcommittee. Thank you for the 
opportunity to be here today.
    It is a profound honor for me to provide testimony on 
behalf of the National Council on Disability. It completes a 
circle in my life, and I would like to tell you about that in a 
moment.
    But let me first say that, in light of what I have been 
hearing today, one of the points I want to emphasize is the 
critical role of this Committee, this House, this Congress, in 
continuing to deliver on the promise of the ADA. The ADA is 
neither self-sustaining nor unassailable. And while we 
celebrate, we must continue to rededicate.
    But let me tell you a little bit from my personal 
experience about why your role is so important, among others in 
our country. My first encounter with the National Council on 
Disability was in 1996 when I began to work on the history of 
the Americans with Disabilities Act under a contract with NCD. 
I was a Ph.D. candidate in American history, at the time, at 
the University of North Carolina at Chapel Hill writing a 
dissertation on the slavery debates.
    The irony in my undertaking about the history of the ADA 
was it was really my first encounter with the concept of being 
a person with a disability, even though I had broken my neck 10 
years previously and was partially paralyzed from that injury.
    I didn't identify as a person with a disability. I didn't 
think of myself as part of a disability community. Disability 
was the enemy. I was embarrassed. I wanted to hide. I wanted to 
be perceived as normal as I could be. I was only vaguely aware 
of the ADA when it passed in 1990, probably much like many 
people with disabilities around the country.
    I had also gone through a bout of depression and was at the 
nadir of that period about the time that I was asked to write 
the history of the ADA. In fact, there was a time where I 
wasn't even sure I would be able to hold a meaningful job.
    But in researching the ADA and interviewing Members of 
Congress, advocates in the disability community, some of whom 
have been here today, my own internalized stigma about 
disability ran headlong into the extraordinary stories of power 
and strength, of pride of people with disabilities, and the 
extraordinary, collaborative, bipartisan, intense effort to 
pass the ADA.
    In retrospect, when I penned the closing line of ``Equality 
of Opportunity: The Dawn of a New Day,'' it was as much about 
my own personal experience in becoming and identifying as a 
person with a disability and becoming a part of a community. 
Disability became a source of liberation, rather than stigma. 
My life gained new purpose and meaning.
    So I am grateful for the chance that NCD gave me to write a 
history of the ADA. It transformed my life. And this personal 
encounter that I had with the ADA, for me through history, is a 
story you hear again and again, you've heard from Cheryl, 
you've heard from Colonel Gadson.
    The ADA, Supreme Court Justice Anthony Kennedy once said, 
is a teacher of sorts. We depend on the ADA to teach all of us, 
individually and our society, about ending exclusion in a very 
deliberate and powerful way. As Cheryl suggested, we can't 
forget where we have come from, even while we have a long way 
to go.
    ``Ugly laws,'' as they were called, pervaded 19th-century 
America. The mere appearance of unsightly people was enough to 
be excluded. The Smithsonian's American History Museum featured 
a sign in one exhibit before the ADA, a beautiful suburban 
community with a sign that said, ``No wheelchairs permitted 
beyond this point.''
    We take for granted now that those things are not allowed, 
but we have to maintain vigilance to make sure, because the 
attitudes don't change overnight. There is a lot of work to be 
done, and it's in that individualized process. And, as I 
mentioned, we depend upon Congress to convene hearings like 
this to provide opportunities to continue work on things like 
personal assistant services in communities.
    And the second point along those lines that I want to make 
is that I am here with you today as a young person, not having 
had any role in passing the ADA, benefiting from the 
extraordinary work of you and many others. But we need a new 
generation of leaders, in Congress, among congressional staff, 
in the advocacy community, in the Administration. And all of 
you have a critical role in that educational process that 
Justice Kennedy talked about, in continuing to be vigilant in 
enforcing the ADA.
    I know my time is drawing to a close here. Let me mention 
that, as we talk about what the ADA means, it is not just about 
raising expectations for our businesses, for our schools, for 
our government offices. It is about changing the expectations 
of people with disabilities themselves. The ADA is about a 
dignity of risk, giving all people with disabilities a chance 
to take risks, to succeed, and to fail. There is no guarantee 
of success.
    As Cheryl pointed out, disability is a natural part of the 
human experience. It is not about a particular interest group. 
It is a law for all Americans, because all of us, at any point, 
could use what the ADA provides, not only when we have 
disabilities, but because of what the ADA does to change 
society. We have heard about curb cuts. Yes, they help people 
with wheelchairs, but take a look at merchants with carts, at 
parents with strollers, at bicycle enthusiasts. This law is for 
America. It's for our veterans.
    A panelist on NCD's summit next week, where we are going to 
focus on themes of living, learning, and earning, Sergeant 
Pasco, like Colonel Gadson, was severely wounded by, not one, 
but two improvised explosive devices. When he joined the 
service in 1990, I don't think we thought that the ADA was 
about our veterans. But as we undertook two wars in Iraq, the 
ADA is changing our society so that we can deliver on the 
promise to our soldiers that, when they return, we are making 
sure that we appreciate their service not as past veterans but 
as continuing contributors to our society.
    The work of the National Council on Disability has a 
critical role in working with Congress and the Administration. 
And let me, in closing, simply say that I am proud that the 
legacy, the hope, and the promise of the ADA endure. We know 
that much work must be done to transform the law into life, and 
together, we can all be a catalyst for our Nation's continued 
transformation.
    Thank you.
    [The prepared statement of Mr. Young follows:]
                Prepared Statement of Jonathan M. Young

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________
    Mr. Nadler. Thank you.
    I'll now recognize Ms. Cox for 5 minutes.

TESTIMONY OF CASANDRA COX, MEMBER, POLICY COMMITTEE, COALITION 
             OF INSTITUTIONALIZED AGED AND DISABLED

    Ms. Cox. Thank you. Good afternoon, ladies and gentleman of 
the House Judiciary Committee and the Subcommittee on the 
Constitution, Civil Rights, and Civil Liberties. It is an honor 
to appear before you today as we celebrate the 20th anniversary 
of the Americans with Disabilities Act.
    My name is Casandra Cox, and I am a former resident of 
Riverdale Manor Home for Adults, an adult home located in the 
Bronx. Prior to moving to Riverdale Manor, I worked 29 years 
for Hadassah, the Women's Zionist Organization of America. 
Towards the end of this period, I became ill and was unable to 
continue working. My mental health affected my life to the 
extent that I wasn't able to function.
    At New York Presbyterian Cornell Medical Center, I 
requested an appointment with a social worker and asked for 
help. She called Adult Protective Services immediately, and 
they took me before the New York State Supreme Court, and the 
judge appointed a guardian. With the guardian's help, I was 
able to have representation in all aspects of my legal as well 
as financial matters.
    Eventually, I had to be hospitalized, and voluntarily 
entered the Payne Whitney Psychiatric Clinic. I was there for a 
period of 3 months. While there, I was evicted from my 
apartment. I had no money, and when I was discharged from Payne 
Whitney I had no place to go. I was advised that I had two 
alternatives: either a shelter or an adult home. To me, a 
shelter was a no-brainer, and I had never heard of an adult 
home.
    An interview at Riverdale Manor, an adult home, was 
arranged. I went into shock, as it was less than ideal. My 
Payne Whitney case manager accompanied me. She had a lot of 
experience and told me on my return that Riverdale Manor was 
one of the better homes, in that FEGS was on-site and offered 
very good programs.
    Mr. Nadler. Just for the record, FEGS is the Federation 
Employment and Guidance Service.
    Ms. Cox. Yes, absolutely. I reluctantly accepted.
    Living in an adult home was one of the most dehumanizing 
experiences I have gone though in my life. We were not treated 
as adults; we were treated as subhumans. There was always this 
undercurrent, ``You are a resident and therefore not quite 
normal.'' They talked down to you. There is a stigma present at 
all times.
    This is also true on the outside. We have to fight this 
stigma of the mentally ill at all times.
    You live in a regimented setting on a daily basis. Rooms 
are shared, and there is no privacy. You have to lock 
everything up. Fights break out occasionally. It was very 
stressful to live in this institutional setting and not good 
for anyone's mental health. While I was a resident, my primary 
goal was to get back to life as I knew it before. I was not 
encouraged toward that end.
    I did become involved with an organization called the 
Coalition of Institutionalized Aged and Disabled. CIAD is an 
advocacy organization of the mentally ill and elderly who live 
in adult homes and nursing homes. I attended a CIAD meeting and 
signed The People's Waiting List. It is a list of names of 
those residents who wish to move to independent housing.
    I joined the CIAD Policy Committee at that time because no 
one was offering to help me move to independence. There were 
comments from the adult home staff such as, ``Why would you 
want to leave? We take care of you. You have everything here.'' 
If I missed an annual function, I would be told, ``Don't worry, 
you'll be here next year. You can go to the one that will 
happen next year.'' The mindset was, ``You are here to stay.'' 
It took me almost 3 years to move out.
    As a result of the advocacy of CIAD and the New York State 
Coalition for Adult Home Reform, an initiative to move 60 New 
York City adult home residents was opened up, and I was able to 
be one of those people to move on under this initiative.
    These apartments were created by the New York State 
legislature. CIAD held housing forums in Brooklyn, Queens, and 
the Bronx to help residents. I was one of the lucky 60. It was 
a difficult process, but I was willing to do anything to be 
able to gain my independence. I celebrated my first year of 
independent living this April, and I continue to work with 
CIAD.
    CIAD filmed my move from Riverdale Manor to my new 
apartment, and this video captured the joy of the move, but the 
true joy comes from the daily basis of being able to wake up to 
a new day filled with the promise of the freedom and reality of 
living, as it should be. I cook, clean, wash clothes, shop, 
budget, go to movies, and meet friends.
    I have support from communal life by my housing provider. I 
see a psychiatrist and a therapist, take my medication on a 
regular basis, and of course, continue to work with CIAD. I 
cannot tell you how wonderful it is to have my life back. 
Instead of the dead-end existence of the institution, I am now 
able to plan my own day, prepare my own meals and know that I 
have a future. My work with CIAD is very important to me, as I 
feel I need to be able to pay forward the work that was done to 
help me as well as the many others in the past.
    As a member of CIAD'S Policy Committee, Adult Home Resident 
Veterans Committee, a committee of former residents, and Food 
Committee, I am able to go to many of the adult homes in New 
York City and observe firsthand the same conditions I have 
described to you. Residents who want to and can move on to 
independent living have approached me. I will continue to do 
all that I can to see that they do move on.
    I've witnessed the ADA and worked for many years. I was a 
union representative when I worked at Hadassah, and it was at 
that time that the ADA was enacted. It was a great help in 
protecting employees rights, and I watch as it helps the 
handicapped all over the United States in housing, 
transportation and employment. I followed with great interest 
the DAI versus Paterson trial in New York. Two other CIAD 
leaders and former residents testified. I considered the 
judge's decision in this case a landmark decision for people 
who suffer from mental illness. It is a perfect application of 
the ADA as it was meant to protect those who need it most. It 
has certainly given me back my life. And for that I am honored 
and grateful to help you celebrate the 20th Anniversary of this 
great law. Thank you.
    [The prepared statement of Ms. Cox follows:]
                   Prepared Statement of Casandra Cox

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Nadler. Thank you. I now recognize Mr. Villalobos.

            TESTIMONY OF ADRIAN VILLALOBOS, INTERN, 
               NATIONAL DISABILITY RIGHTS NETWORK

    Mr. Villalobos. Good afternoon and thank you Chairman 
Nadler and Members of the Committee for inviting me here to 
share my story today. My name is Adrian Villalobos, and I am 
from El Paso, Texas. I'm currently an intern at the National 
Disability Rights Network through a fellowship from the 
Southern Education Foundation.
    July is a very significant month for me. I was born in July 
and so was the Americans With Disabilities Act. I also had a 
life-changing accident in July. The ADA was 3 years old when my 
life changed and I was essentially reborn. Growing up with the 
ADA, I consider it my metaphorical big brother. When I was 8, I 
was hit by a car. I was in the hospital for 2 months and I 
missed my entire summer vacation. The following intensive 
outpatient rehabilitation cut into the school year and I missed 
6 weeks of classes. It was my first taste of social isolation.
    When I finally returned to school in the third grade I was 
in a wheelchair at an elementary school that was not 
accessible. The right of people with disabilities to be fully 
included in society was a new concept. And my parents were 
unaware of the services I was now entitled to. One by one, the 
third grade teachers refused to have me in their classroom. The 
intense feeling of rejection my parents experienced on my 
behalf fueled them to push forward. Finally, a teacher agreed 
to have me in her class. She and my twin had to drag my chair 
through the pebbled walkway all the way around the building to 
get to the portables, the only accessible classrooms in the 
school.
    I was still unable to get into the main building and none 
of the restrooms were accessible. To get to the cafeteria and 
auditorium, which were detached from the main building, I had 
to enter through a loading dock. I remember my return to school 
very fondly because of the mutual excitement my peers and I had 
to see each other once again. They were happy to see me, their 
friend Adrian, not a kid that came back in a wheelchair.
    The following school year, my class, now fourth grade was 
again assigned to the portables. My parents are frustrated that 
my school was inaccessible and continued to push the principal 
and school administration, only this time a year after the 
accident, my family was more educated about my rights and 
pointed to the ADA. The school administration acted, ramps to 
the school building and the cafeteria were built, a bathroom 
was made accessible and I was allowed to use the elevator 
previously restricted to the custodial staff giving me access 
to the nurses' station. In elementary school, I got a taste of 
basic accommodations.
    The administration and my middle school had a completely 
different tone, they did not have accessible facilities but 
made major changes to their school to make my experience a 
positive one. As I was growing, the ADA was growing and the 
attitude of inclusion was evolving in a positive way. My 
principal wanted me to have the option to attend any school 
event or activity I wanted to. He insisted on a modified cello 
so could I learn the instrument and play in the school 
orchestra. A lift was built so I could get on stage and 
participate in the drama club. And a ramp was built across the 
highway to the football field. Middle school taught me 
inclusion.
    By high school, I had good friends, knew how to navigate El 
Paso comfortably and felt self-empowered. I attended high 
school in a new building that was completely accessible. It was 
1999, and the ADA was in full swing. I really understand that 
perceived limitations are not actual limitations. And despite 
my disability, I was responsible for reaching my potential. 
With that self-confidence and motivation, I enrolled in a 
liberal arts college in Ohio. Excited to start something 
challenging and new, I quickly learned that accessible is not 
equal. The college disability office--with only one staff 
member--granted an accessible room with an accessible bathroom 
and shower. The problem with my room is that it was in the 
lobby of my dorm. Everyone else lived on the other side of 
locked hallways in the typical freshman hall setting. I was a 
guy who lived in the lobby. The gratitude I felt for having an 
accessible shower quickly turned to a feeling of isolation. As 
I evolved and my needs changed, the accommodations were no 
longer adequate. I needed inclusion, the ADA recognized that 
too. I didn't survive that college in Ohio, instead I 
transferred to the University of Texas at El Paso back to my 
friends and family and my network.
    But even at the University of Texas at El Paso where I was 
accommodated and included, there were obstacles to overcome. On 
my graduation day, for example, I was excluded from the 
commencement procession because in the words of University 
staff, I was a fire hazard. As I've evolved as an individual 
with disability, so has the ADA. The concept of disability 
rights is no longer new or foreign. I attribute that to the ADA 
creating a general awareness of accessibility and inclusion, 
more importantly, the people in my life had become aware of 
disability rights.
    As the ADA evolved, it is important for policymakers to be 
proactive about inclusion of all people with disabilities. I am 
lucky to have a family that has helped me when I needed it, but 
I reflect on others I met along the way. In El Paso many 
families don't speak English. I wonder how their children with 
disabilities fare. Independent advocates are needed to enforce 
the ADA. My experience with disability rights has motivated me 
to pursue a career in disability rights policy.
    I want to go beyond achieving independence and access for 
myself. I want to be an advocate for others as well. I'm now 
pursuing a joint degree in public and business administration. 
And my first goal is to work with my University to bring to 
life the accessibility issues and to participate fully in my 
commencement ceremonies when I complete my graduate studies. 
Beyond that, I feel limitless. Thank you again for granting me 
the opportunity to speak before all of you today.
    [The prepared statement of Mr. Villalobos follows:]
                Prepared Statement of Adrian Villalobos

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. [Presiding.] Thank you very much. I want to 
thank all the witnesses for their testimony. I think you 
articulated extremely well why the ADA is needed, and the 
difference between what happened before and what's happened 
since. So thank you very much for your testimony.
    I now recognize myself for questions. First to Colonel 
Gadson, if someone is injured in the service, what job 
opportunities are there? And what usually happens in terms of 
people that are disabled during the war?
    Colonel Gadson. Well, I'll speak for those that are 
severely injured and really the process for those that are less 
injured are essentially easier. The first thing is about 
rehabbing. The military's--and the Army is committed to making 
sure that the soldier heals and they get to a point where their 
medical conditions are taken care of. At that point, the 
medical community will make a determination whether or not the 
soldier is able to continue service or not, able-bodied or not 
able-bodied.
    In my case, I was determined not to be able-bodied because 
of the loss of my limbs. At that point, I had an opportunity to 
apply to continue on active duty and that's what I pursued.
    Mr. Scott. Did you have a absolute right to continue?
    Colonel Gadson. It is a right to apply, I would not say it 
is a absolute right to continue, no, sir.
    Mr. Scott. Okay.
    Colonel Gadson. It is my opinion, and my interpretation 
that you still have to have an ability to contribute and there 
are lots of ways to contribute. And I think the military and 
the Army is very amenable to allowing you to find a way to 
allow you to continue to contribute.
    Mr. Scott. Is there an assessment of what you can do and 
are you offered various job opportunities?
    Colonel Gadson. I would say yes. Again, you are--you may 
not be able to continue in the same military occupational 
specialty that you are, but there are quite a few others and 
other options so yes, there is an assessment made on whether 
you can continue and they offer you opportunities into other 
skills.
    Mr. Scott. What about housing?
    Colonel Gadson. I--as I said, I live in an ADA compliant 
home. ADA compliant homes are not uncommon on all military 
installations so--as well as barracks.
    Mr. Scott. Are there any other services that you need to 
continue to be in the military?
    Colonel Gadson. No, sir.
    Mr. Scott. Is accessibility available for spouses?
    Colonel Gadson. Yes, sir. I can't speak to the complete 
history of accessibility to spouses and children, but in 
general, I've been aware that accessibility for spouses and 
children has always been--in my time in the service--has always 
been accommodated.
    Mr. Scott. Are there more opportunities that could be a 
made available if we worked at it harder?
    Colonel Gadson. Well, I think we're doing a pretty good job 
right now. I'm just getting on board, but I think that there 
are tremendous opportunities. There is a paraplegic at Ft. 
Campbell that's been allowed to stay, so I think there's--I 
think as you look across the board, you will find that if 
someone is looking to continue to serve and they show some 
abilities that the military is more than accommodating.
    Mr. Scott. Okay.
    I would like to ask all of the witnesses as legislators 
what the legislative priorities should be, if there are any 
particular priorities in terms of funding or legislative 
changes specifically that we should be looking at--if anyone 
has a specific recommendation for legislation. Mr. Young.
    Mr. Young. If I might, I would like to speak to one of the 
issues that came up earlier in that regard what Ms. Cox 
discussed for home and community-based services. One of the 
challenges we have on many disability issues is the way things 
are costed out, whether it is by OMB or Congressional Budget 
Office, and it is sometimes difficult to calculate the relative 
benefits versus the costs. I think the reality on home and 
community-based services is we don't know as well as we ought 
precisely how those costs are going to fare with what you 
described as the ``woodworking'' effect.
    There have been some analyses where a number of States, 
including Maine, when shifting toward more emphasis on long-
term services and supports have actually seen spending decline. 
There are a number of States who have seen increases in costs, 
but relative to overall rate of growth has been a lower rate of 
growth than other States. And so I think one of the things we 
might do is actually get a better handle on that, but that is 
huge priority for people with disabilities. It goes squarely to 
the dignity
    of risk that I mentioned earlier. We talk about full 
participation, economic self-sufficiency, independent living. 
You can't do that if you're out of society in an institution.
    So I think that's a basic issue that we need to find a way 
to remedy. I think one of the challenges also there, we heard 
this a little bit earlier from Assistant Attorney General 
Perez, there are coordination issues among different agencies 
and different departments. And one of the challenges that I 
see, and opportunities for the National Council on Disability, 
is to try to work with being sort of a hub with a 360-degree 
perspective to try to figure out how we can have agencies and 
departments work collaboratively toward consistent 
implementation.
    Mr. Scott. Any other specific recommendations, Ms. 
Sensenbrenner?
    Mrs. Sensenbrenner. Yes, again, I don't have specifics, but 
I would again agree with Governor Thornburgh, employment is 
number 1, you heard it mentioned repeatedly. But that's where 
things are not--haven't really increased much at all. Governor 
Thornburgh mentioned employment.
    Again, I agree with you, Jonathan, the independent living 
situation, how we cost that whole thing out and come up with 
it. And also again, I have no answers, I'm just telling you 
what I would love to see happen, and that is Supplemental 
Security Income limitations and how that impacts severely on 
people.
    Mr. Young. If I might add also to the comment on 
employment, I think certainly the National Council on 
Disability, we've embraced living, learning and earning as 3 
core themes. When you talk about earning, it is not simply wage 
labor, it is asset development, the ability to accumulate 
assets, a variety of income. It is an opportunity to coordinate 
our income support services with our health care policies and 
our employment goals.
    One thing I want to emphasize, though, there certainly is a 
critical role for enforcement. Right now it is possible. 
Yesterday I was at an event where a Tony Coehlo award was given 
to the National Security Agency. This year they are going to 
exceed hiring 20 people with disabilities. That is an effort 
they began with a group called Thunder Consulting bringing 
qualified people with disabilities. I submit to you if the 
National Security Agency with its highest of high requirements 
for security clearance and protecting our country can make 
dedicated efforts to hire people with disabilities, not because 
it is a charity, but because they are finding that they are 
phenomenal engineers, budget people, managers within the 
National Security Agency. So I think part of the dedication to 
employment is more transformative commitments one on one and 
individualized, individual companies, individual agencies to 
recognize what's possible and not look at what's an okay stick 
call.
    Mr. Scott. Thank you. Gentlelady from Texas, Sheila Jackson 
Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I think 
all of you should be congratulated, this has been enormously 
instructive on what are our steps going forward. And really 
some of the most descriptive and disturbing stories about the 
treatment of the disabled in a variety of ways. And I think it 
is important to remind ourselves every day a quote that that 
someone else said on a civil rights question, of which the ADA 
is: Injustice anywhere is injustice everywhere--Dr. King. So as 
I ask questions, I want and hope you will continue to build a 
story, because that's how legislation is passed.
    Mrs. Sensenbrenner, let me say that I do agree on the 
Social Security Income threshold. Because I think what you're 
saying is that so people can become independent. And many 
people don't know that if you were to lose the SSI or Social 
Security, you also lose access to services. So it is not just 
income, but people want to be independent, and I think that is 
going to be particularly strong with respect to Lieutenant 
Colonel Gregory Gadson's constituents, so many of our soldiers 
are coming back.
    Let me pose this question to Mrs. Sensenbrenner just to 
take us down memory lane for a second, you mentioned your 
sister Tara. Could you just give us a sense of what it would 
have been like for Tara if we had had the ADA in place and 
whether or not you think the amendments of 2008 were effective 
where we I think sort of broaden the definition or included the 
definition or clarify the definition of disabilities so others 
would not be left out.
    Mrs. Sensenbrenner. Okay, I certainly hope it doesn't sound 
like I'm evading your question, but this kind of jumps over to 
memory lane again when I was listening to Mr. Young and when I 
talked to Ted Kennedy, he was with our organization as well. 
And the process of self-identify and how some of us, the whole 
process of some of us have had opportunities that the average 
person wouldn't have so we never self identified, we never 
understood or never had to labor as other people did in some 
cases.
    My sister it was somewhat--I was injured when my sister 
was--about the time my sister was born. So we had a symbiotic 
relationship. I couldn't move out of bed and she was a little 
girl that needed childhood education as we know now. Early 
education, when you have an intellectual disability, is so 
important. So frankly she would physically help me, and I would 
work with her all day on her intellectually. So she was a 
little spoiled. She had opportunities that in other words, 
other people of her type didn't. I mean, who has Down's 
syndrome that can drive a car at 16? She took college classes, 
she has Down's syndrome. So that early stimulation helped, 
because again we had a special situation because she had a 
disabled sister there with her.
    But many of her friends are not like that. As a matter of 
fact, in some ways, she's a unique woman because she is able to 
function so well, you know. None of her boyfriends are as hip 
or as cool as she is. And she can do so many things. Her 
vocabulary blows my brain away at times.
    Ms. Jackson Lee. Well, I think you've answered it because 
what you've said is she had her own ADA and her own ADA proved 
that that kind of assistance, intervention can change lives. 
You've answered and I appreciate it very much. So.
    Lieutenant Colonel Gadson, could you--you're doing very 
important work, thank you for your service. I think it is 
important for the record to reflect what you see in the numbers 
of wounded warriors, you dealing with the severely wounded, but 
I know you interact with returning soldiers all the time. I 
think America needs to hear that although they are courageous 
and overcoming a lot of injuries, are we going to be dealing 
with these soldiers for a long time? Is that your 
understanding?
    Colonel Gadson. Yes, ma'am, and the--it has been documented 
in history that the scars of war are long and deep. I think our 
services have tremendous recognition that we've grown 
tremendously in terms of the recognition of those kinds of 
wounds, especially the ones that are invisible.
    Ms. Jackson Lee. Well, as you indicated, this is your own 
testimony, I think there are going to be thousands that we're 
dealing with for a very long time, there are certainly a number 
that comes to mind, 165,000 injured soldiers coming back, but 
many people think Veterans affairs or assistance, is it 
important for those soldiers as they move in civilian life to 
have the ADA in place?
    Colonel Gadson. Yes, ma'am, I do. I am just amazed as I 
said. I'd never really heard or understood the ADA. I think 
intuitively though, I didn't understand--I didn't know what the 
ADA was, but I think--I also kind of grew up with it and there 
are things that you saw that you never really thought were ADA 
related.
    And so I give myself a little bit more credit for not being 
aware of it, but also having an appreciation for it. It is 
important, and I recognize that I've been able to do many 
things from learning how to ski to learning how to golf because 
accessibility is important. And having that accessibility has 
been what has been in truly meaningful in my recovery. As 
they've all said, self-identify is important, and I've gotten 
my confidence back because of access. And I believe I've been 
allowed to flourish and continue to grow because our culture, 
because our Nation is grateful and makes accessibility a 
priority.
    Ms. Jackson Lee. It is a very important statement. I'm 
going to ask three quick questions. If Mr. Young would take one 
question and Ms.--I'm trying to--Ms. Cox will take the other 
and Mr. Villalobos take a question as well. Mr. Young, what is 
the next battle NCD sees that they have to engage in as relates 
to people with disabilities?
    Mr. Young. The National Council on Disabilities has a 
budget of $3 million with an obligation to advise the President 
and the Congress on every manner of disability issues and 
policies for the entire Federal Government. It is a tiny agency 
with a giant mission. And it is different looking at 54 million 
Americans with disabilities and all the issues, and say here is 
the one thing we are going to do. I'm not trying to evade your 
answer, but I'm going to talk about----
    Ms. Jackson Lee. You've set up your problem, you said 
you've got $3 million and you have a mountain of a task, you've 
already given me your next battle, but go ahead.
    Mr. Young. One of the things that's not terribly exciting 
but critical is coordination. And there are any number of ways 
that we can talk about it, one of them regards our income 
support policies. So if we are saying we want people to go to 
work but going to work means losing support, and losing SSI 
means losing food stamps or access to housing vouchers, our 
system isn't working in a coordinated fashion. I understand the 
departments are vigorously pursuing departmental missions, and 
that's important.
    Somehow we need to find a better way to work in a 
coordinated fashion. Again, a sweeping challenge, we just heard 
front page reports about coordination challenges around 
national security issues since 9/11, so it is not unique, FEMA 
deals with it. Right now what I'm trying to do more than 
anything else is build an agency that is equipped and capable 
to answer your charge and to try to deliver on coordinating a 
lot of things that are good and in place but not working as 
they ought to.
    Ms. Jackson Lee. I think you've given me the answer, and I 
thank you for that. Maybe we can work on the SSI issue.
    Ms. Cox, please understand the question is a positive one, 
you hear individuals saying it is dangerous to have individuals 
with disabilities living on their own, mainstreaming. What do 
you say to that?
    Ms. Cox. I say that's not true, definitely not true. When 
they set up the 60-bed initiative, we had eight of the people 
from my Riverdale Manor adult home, become part of that 
initiative. We are all living useful lives, and become part of 
the community. We live on a daily basis, as I describe my life; 
we take our medication on a regular basis; we're not a danger 
to anybody. All 60 of those people are living useful lives and 
have become part of the community.
    In many instances some of the people who are part of the 
CIAD policy committee, one of the guys who is part of the 
policy committee worked on the Census, this past Census when he 
was one of the Census takers. We do--we do everything everybody 
else does because we're normal, we are normal. We have a health 
issue, a mental health issue, that's what's wrong with us. And 
there's no reason for anybody to be afraid of us at all.
    Ms. Jackson Lee. More harm to yourselves. I think you made 
an excellent--this is my last question to Mr. Villalobos. Let 
me just say that the University of Texas, coming from Texas at 
El Paso owes you a graduation. And I'd like to be in a court of 
law, put them on a witness stand, and say could you explain to 
me what fire hazard means for a young man graduating in his 
graduating class and allowing his family to see him proceed 
with the rest of the graduating class. That would be too long 
for you to answer, but what I do want to have you answer is 
this whole idea of growing up as a child that is disabled, you 
clarify that it can be done, the elementary school was behind 
the times, the children were welcoming and accepting, your high 
school students were welcoming and accepting, obviously 
college. Give us what we should do to continue to grow that 
kind of acceptance as more and more disabled persons, just 
because of the nature of life come into the education system.
    Mr. Villalobos. Absolutely. As I said, I'm a fellow with 
the Southern Education Foundation, and they have these intern 
opportunities granted to interns since the celebration of Brown 
v. Board of Education since the 2004, 50th anniversary. And 
this is so applicable for students with disabilities because 
just like it says in the Brown decision, how can you ever 
anticipate to have a good citizen participating in the 
community if you deny them an education?
    This is precisely what's happening with some students with 
disabilities. And that's the first time that a child is 
introduced to the community and they cultivate that ability to 
identify with friends and peers and things of that nature, and 
they recognize what they can do and what they can't.
    Ultimately, you need to be able to create that bridge. So 
it is important within the education setting itself, because 
you are creating that ability for them to build upon 
themselves. Give them the opportunity to not only recognize 
that they not only belong within the school setting, but they 
have the right to live in the world. And that's the origin of 
how we come to know each other as citizens of the United 
States. So it is on that level. And that's how I saw it as well 
growing up with the ADA. If I didn't have the ADA on my side, I 
wouldn't have been able to participate in my educational 
setting. I probably could have been denied an education that 
has gotten me here right now.
    Ms. Jackson Lee. And other children accepted you?
    Mr. Villalobos. Oh absolutely. Like, I think because I'm--
prior to my accident, they loved me for who I was then, they 
love me even more now. I just added a unique dynamic to my 
personality, and I hold onto my disability as part of my 
identity, so disability power definitely.
    Ms. Jackson Lee. This has been powerful testimony, Mr. 
Chairman. Thank you for your indulgence and I see a lot of 
pathways for us to go forward. Most of all for me, I would like 
to work on the SSI issue, I've heard it from Veterans who are 
likewise on disability in another form. And I hear it now and I 
think I want to conclude by saying aren't we the better for now 
people accepting and understanding and knowing that we all have 
something to contribute in this world. I yield back, Mr. 
Chairman.
    Mr. Scott. Thank you, and again, I want to thank all of our 
witness for their testimony. This has been a tremendous hearing 
about the need and the success of the Americans With 
Disabilities Act. Without objection, all Members have 5 
legislative days to submit to the Chair additional written 
questions for the witnesses, which we will forward and ask the 
witnesses to respond to as promptly as they can, so the answers 
may be made part of the record. Without objection all Members 
will have 5 legislative days to submit any additional materials 
for inclusion in the record. And with that, and without 
objection, the hearing is adjourned.
    [Whereupon, at 5:40 p.m., the Subcommittee was adjourned.]




















                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
